Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

January 14,2021
Christopher M. Wolpert
Clerk of Court

NOE TORRES,
Petitioner - Appellant,
v.

DWAYNE SANTISTEVAN; GEORGE
STEPHENSON; ATTORNEY GENERAL
OF THE STATE OF NEW MEXICO,

No. 20-2029
(D.C. No. 2:19-CV-00209-KWR-JHR)
(D. N.M.)

Respondents - Appellees.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before HARTZ, McHUGH, and CARSON, Circuit Judges.
Pro se prisoner Noe Torres is serving a sentence of life plus nineteen-and-a-half
years for, among other crimes, first-degree murder. He seeks a certificate of appealability
(COA) to challenge the district court’s denial of his 28 U.S.C. § 2254 habeas petition. As
explained below, we deny a COA and dismiss this appeal.

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 2

Background
On September 14, 2005, Ruben Perez was involved in an altercation with Orlando
Salas at their high school in New Mexico. Orlando had two older brothers, Demetrio and
Edward. State v. Torres, 413 P.3d 467, 472 (N.M. 2018). i
After the altercation, “[i]n the early hours of September 15,” Orlando and
Demetrio “said they wanted to get that ‘sewer rat,’ referring to Ruben.” Id. Demetrio
and a friend, David, then drove to the apartment complex where Ruben lived to “‘do a
mission.’” Id.
At the same time, Torres and Edward drove to the same apartment complex with
two women. Torres and Edward exited the vehicle, approached Demetrio and David,
shook hands with them, and disappeared from the women’s view.
Gunshots followed. Specifically, nine shots were fired at very close range through
a window into the bedroom Ruben shared with his ten-year-old brother, Carlos. Bullets
struck Carlos, killing him.
Demetrio and David fled to a friend’s house near the apartment complex.
Demetrio was described as “on an adrenaline rush” and holding a gun.
Demetrio said, “We just went and blasted nine rounds into that sewer rat’s
house, pow, pow, pow, pow.” Demetrio told [a woman at the house] not to
touch him because he had gunpowder residue on him. [The house’s owner]
turned on his police scanner, and they heard that a child had been shot and
that police were looking for a [vehicle that matched Demetrio’s vehicle].
[The house’s owner] heard someone say, “Oh we got the wrong guy.”
Id. at 472-73 (ellipsis omitted).

i

Except for Petitioner-Appellant Torres, we follow the New Mexico Supreme
Court’s use of first names to recount the background of this case.
2

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 3

Meanwhile, Torres and Edward had run back to their vehicle.
When [Torres] got to the car he was described as excited and smelling like
“burned matches.” [Torres] got into the driver’s seat..., Edward got into
the front passenger seat, the [women] got into the back seat, and they “took
off.” When Edward received a phone call, [Torres] turned up the radio
volume. [One of the women] heard Edward say to [Torres], “We didn’t get
him. We got the little boy,” and then heard [Torres] reply, “Are you sure it
was the little boy?”
Id. at 473. The next day, Torres fled to Mexico. Police obtained a warrant for his arrest.
Torres “was arrested more than six years later in Chihuahua, Mexico, and after
another six months was brought back to New Mexico for trial.” Id.
After a trial in March 2015, a jury found Torres “guilty of shooting at a dwelling
resulting in death or great bodily harm to Carlos, first-degree murder of Carlos, attempted
first-degree murder of Ruben, conspiracy to commit first-degree murder, conspiracy to
shoot at a dwelling, transportation of a firearm by a felon, and intimidation of a witness.”
Id. The trial court sentenced Torres to life imprisonment plus thirty-one-and-a-half years.
On appeal, the New Mexico Supreme Court affirmed Torres’s convictions of
first-degree murder, attempted first-degree murder, conspiracy to commit first-degree
murder, and transporting a firearm. But the court reversed on double-jeopardy grounds
his convictions for shooting at a dwelling and conspiring to shoot at a dwelling. It also
vacated a habitual-offender sentencing enhancement.2 On remand, the trial court
resentenced Torres to life imprisonment plus nineteen-and-a-half years, with credit for
time served.

2 Torres did not appeal the witness intimidation conviction.
3

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 4

Torres unsuccessfully sought state postconviction relief and then filed the instant
§ 2254 petition in federal district court. A magistrate judge recommended denying the
habeas petition, and Torres timely objected. A district judge adopted the
recommendation, reviewing some of Torres’s objections de novo and concluding that
others were waived due to a lack of specificity. The district judge denied a COA.
Discussion
I. Standards of Review
To appeal the denial of a § 2254 petition, a petitioner must obtain a COA by
“showing that reasonable jurists could debate whether ... the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473,484 (2000)
(internal quotation marks omitted). When the district court has rejected a habeas claim
on procedural grounds, the petitioner must show both (1) “that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional
right,” and (2) “that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Id.
Our consideration of a habeas petitioner’s request for a COA must incorporate the
Antiterrorism and Effective Death Penalty Act’s (AEDPA’s) “deferential treatment of
state court decisions.” Dockins v. Hines, 374 F.3d 935, 938 (10th Cir. 2004). Under
AEDPA, when a state court has adjudicated the merits of a claim, a federal court may
grant habeas relief only if that state court decision “was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
4

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 5

Supreme Court of the United States,” 28 U.S.C. § 2254(d)(1), or “was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding,” § 2254(d)(2). We therefore “look to the District Court’s application
of AEDPA to [Torre’s] constitutional claims and ask whether that resolution was
debatable among jurists of reason.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
II. Sufficiency of the Evidence
Torres claims that the prosecution failed to present sufficient evidence to support
his convictions for first-degree murder, attempted first-degree murder, conspiracy to
commit first-degree murder, and unlawful transportation of a firearm. We conclude that
a COA is not warranted.
In resolving a sufficiency-of-the-evidence claim, a court asks “whether, after
viewing the evidence in the light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979). In other words, “[a] reviewing court may
set aside the jury’s verdict on the ground of insufficient evidence only if no rational trier
of fact could have agreed with the jury.” Cavazos v. Smith, 565 U.S. 1, 2 (2011).
Further, “a federal court may not overturn a state court decision rejecting a sufficiency of
the evidence challenge” unless “the state court decision was objectively unreasonable.”
Id. (internal quotation marks omitted).
A.

Murder, Attempted Murder, & Conspiracy
The New Mexico Supreme Court held that “there was sufficient evidence to

support the jury’s finding that [Torres] had the requisite deliberate intent to kill required
5

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 6

for his convictions of first-degree murder and attempted first-degree murder.” Torres,
413 P.3d at 480. In regard to his conspiracy conviction, the Court stated that “a
reasonable, or reasoning, jury could find that [Torres] was part of an agreement with one
or more others to murder Ruben.” Id. For all three crimes, the Court cited evidence
showing that Torres had assisted in the plan to kill Ruben, participated in the actual
attempt to kill him, and afterward questioned whether the wrong person had been killed.
The district court discussed the New Mexico Supreme Court’s reasoning and
explained that Torres’s contrary trial testimony merely presented a conflict in the
evidence, which the jury was capable of resolving. See United States v. Poe, 556 F.3d
1113, 1125 (10th Cir. 2009) (observing that when reviewing the sufficiency of the
evidence, a court does “not weigh conflicting evidence or consider witness credibility, as
that duty is delegated exclusively to the jury” (internal quotation marks omitted)).
In his COA application, Torres argues that the district court “Erredf ] in the
Understanding of the facts, recitation and interpretation of the record, failed to consider
... Verbatim Ground I from Direct Appeal; All of which shows and demonstrates Actual
Judicial Bias, Miscarriage of Justice, Actual Innocence.” Aplt. Combined Opening Br. &
Appl. for COA at 8. But he does not explain in any detail how the district’s court’s
decision is debatable with respect to whether the New Mexico Supreme Court
unreasonably applied Jackson in rejecting his sufficiency-of-the-evidence claim. His
summary assertions that the trial judge “manipulate[d]” the jury and “allowed uncredible
‘witnesses’ to perjur[e] themselves time and time again,” id., are insufficient. See Burrell
v. Armijo, 603 F.3d 825, 835 (10th Cir. 2010) (“[0]n appeal, issues nominally raised but
6

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 7

inadequately briefed need not be considered.”)- Although we must liberally construe
Torres’s pro se filings, we do not act as his advocate, constructing arguments and
searching the record. See Garrett v. Selby Connor Maddux & Janer, 425 F.3d 836, 840
(10th Cir. 2005).
B.

Transporting a Firearm
The New Mexico Supreme Court held there was sufficient evidence that Torres

knowingly transported a firearm because he testified at trial “that on September 14, 2005,
he was driving Edward around town and was aware that Edward had brought a gun into
the car.” Torres, 413 P.3d at 481. In the district court, Torres disputed testifying that he
knew Edward had a gun in the car. The district court examined Torres’s testimony on the
subject, noting that his testimony described driving Edward around on the 14th and being
aware that Edward had a gun. Indeed, Torres testified he had been told that Edward had
a gun, he thought Edward acted like he had a gun, and he told Edward he did not want to
be around the gun.
The district court concluded that Torres’s testimony did not rebut the New Mexico
Supreme Court’s characterization of the facts. See Littlejohn v. Trammell, 704 F.3d 817,
825 (10th Cir. 2013) (“Factual findings of the state court are presumed correct unless the
applicant rebuts that presumption by clear and convincing evidence.” (internal quotation
marks omitted)).
In his COA application, Torres argues that the district judge “chose to throw her
own assumption on the testimony she reviewed;... erred in her recitation of the facts[;]
and demonstrated her own Judicially biased opinion.” Aplt. Combined Opening Br. &
7

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 8

Appl. for COA at 7. But he has not cited any evidence to rebut the presumption that the
New Mexico Supreme Court correctly characterized his testimony as showing his
awareness that Edward had a gun in the car.
III. Double Jeopardy
Torres next claims that the New Mexico Supreme Court applied the wrong remedy
when it concluded that double jeopardy barred his convictions for shooting at a dwelling
and conspiring to shoot at a dwelling. According to Torres, all of his convictions should
have been vacated based on just those two double-jeopardy bars. The district court
rejected the claim, noting that the remedy for a double-jeopardy violation is to vacate one
of the convictions subject to a double-jeopardy bar. See Rutledge v. United States, 517
U.S. 292, 297, 307 (1996) (indicating that double-jeopardy addresses “whether a
defendant has been punished twice for the ‘same offense,’” and concluding that because
conspiracy was a lesser included offense of operating a continuing criminal enterprise,
“one of [the defendant’s] convictions, as well as its concurrent sentence, [wa]s
unauthorized punishment for a separate offense and [had to] be vacated” (brackets and
internal quotation marks omitted)); Ball v. United States, 470 U.S. 856, 864 (1985)
(explaining that “the only remedy” for a double-jeopardy violation is “to vacate one of
the underlying convictions”).
The district court’s decision is not debatable.
IV. Witness Cross-Examination
At trial, Detective Keith Farkas testified “that the evidence collected from the
vehicles, consisting of fingerprints, hair, and gunshot residue, produced no conclusive
8

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 9

results as to the vehicles’ occupants.” Torres, 413 P.3d at 482. Torres sought to
cross-examine him about being fired from the police department for allegedly stealing a
laptop computer from work in 2006. Torres “argued that the evidence was admissible
because it went to Farkas’ credibility and trustworthiness.” Id. at 481. The trial court did
not allow the cross-examination, and the New Mexico Supreme Court found no abuse of
discretion, stating that “[h]is testimony provided very little, if any, incriminating evidence
against [Torres].” Id. at 482.
In his habeas petition, Torres claimed that his inability to cross-examine Farkas
about the termination violated his Sixth and Fourteenth Amendment rights. Torres
surmised that the laptop might have had recordings of witness interrogations showing that
the “witnesses were persuaded to perjure themselves.” R., Vol. I at 26.
The magistrate judge recommended denying the claim because Torres had asserted
a general attack on witness credibility, which is not cognizable under the Sixth
Amendment, see Davis v. Alaska, 415 U.S. 308, 316, 321 (1974) (indicating that
impeaching a witness’s general credibility is not constitutionally protected), and had
identified no Fourteenth Amendment violation, see Lopez v. Trani, 628 F.3d 1228, 1231
(10th Cir. 2010) (stating that “evidentiary rulings by the state court... will not [be]
disturbed] unless the court’s error was so grossly prejudicial that it fatally infected the
trial and denied the fundamental fairness that is the essence of due process”). The district
judge found that Torres had not preserved the issue for review because he objected on
only a conclusory basis that the magistrate judge was biased and that his rights were
violated.
9

l

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 10

We conclude that a COA is not warranted on this claim. Torres’s objections to the
magistrate judge’s recommendation were too conclusory to preserve review of his habeas
claim. See United States v. 2121 E. 30th St., 73 F.3d 1057, 1060 (10th Cir. 1996)
(requiring “an objection that is sufficiently specific to focus the district court’s attention
on the factual and legal issues that are truly in dispute”).
V. Shackling
On direct appeal, Torres argued that the trial court erred by allowing him to be
shackled to the counsel table without first conducting a hearing. Because Torres did not
object to the shackling or request a hearing, the New Mexico Supreme Court reviewed
for only fundamental error and found none, as there was no indication the shackles were
ever visible to the jury. Further, the Court noted the trial judge had acted to ensure that
the jury did not see the shackles by removing them outside the jury’s presence so Torres
could testify.
The magistrate judge determined there was no due-process violation because
Torres did not allege either that the jury saw the shackles, see Deck v. Missouri, 544 U.S.
622, 629 (2005) (“prohibiting] the use of physical restraints visible to the jury absent a
trial court determination, in the exercise of its discretion, that they are justified by a state
interest specific to a particular trial”), or that the shackles interfered with his defense, see
id. at 631 (observing that shackles “can interfere with a defendant’s ability to participate
in his own defense, say, by freely choosing whether to take the witness stand on his own
behalf’).

10

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 11

The district judge found that Torres had waived any objection to the magistrate
judge’s determination by merely urging the court to review the record. We conclude that
a COA is not warranted. See 2121 E. 30th St., 73 F.3d at 1060 (requiring “an objection
that is sufficiently specific to focus the district court’s attention on the factual and legal
issues that are truly in dispute”).
VI. Ineffective Assistance of Counsel
A claim of ineffective assistance of counsel requires a showing that defense
“counsel’s performance was deficient” and that “the deficient performance prejudiced the
defense.” See Strickland v. Washington, 466 U.S. 668, 687 (1984).
In his state postconviction petition, Torres claimed that his trial counsel was
ineffective because she (1) waived his right to testify before the grand jury; and (2) failed
to call character witnesses to testify that he is not a violent person. The postconviction
court rejected the claim, finding neither deficient performance nor prejudice.
Torres reasserted the claim in his federal habeas petition. The district judge
concluded that Torres had not shown deficient performance or any resulting prejudice.
Because the state postconviction court rejected Torres’s claim on the merits, we
ask only whether its “application of the Strickland standard was unreasonable. This is
different from asking whether defense counsel’s performance fell below Strickland's
standard.” Harrington v. Richter, 562 U.S. 86, 101 (2011). Habeas relief is available
only “where there is no possibility fairminded jurists could disagree that the state court’s
decision conflicts with” Strickland. Id. at 102.

11

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 12

In his COA application, Torres does not address defense counsel’s decisions to
waive his grand jury testimony and not call character witnesses. Instead, Torres
complains only that she “took. .. cash and purposely did not provide [an] investigator
and expert witness.” Aplt. Combined Opening Br. & Appl. for COA at 12. We do not
address “issues nominally raised but inadequately briefed.” Burrell, 603 F.3d at 835.
We deny a COA as to ineffective assistance of counsel.
VII. The Interstate Agreement on Detainers (IAD)
The IAD is a uniform law enacted by forty-eight states, the District of Columbia,
and the federal government that provides “procedures for lodging and executing a
detainer, i.e., a legal order that requires a State in which an individual is currently
imprisoned to hold that individual when he has finished serving his sentence so that he
may be tried by a different State for a different crime.” Alabama v.. Bozeman, 533 U.S.
146, 148 (2001). Among other things, the IAD “gives a State the right to obtain a
prisoner for purposes of trial, in which case the State . .. must try the prisoner within 120
days of his arrival.” Id. at 151.
In his state postconviction petition, Torres argued that he was not timely brought
to trial after being extradited to New Mexico. The postconviction court summarily
denied the claim.
The district court determined that Torres’s IAD claim was not implicated by his
extradition from Mexico and was not cognizable under § 2254. In his request for a COA,
Torres contends that the IAD applies because U.S. Marshalls took him from Mexico to
Texas before turning him over to New Mexico authorities. He also contends that if he
12

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 13

had been brought to trial in New Mexico within 120 days, he would not have been
subjected to the “[blotched proceedings” he has claimed in his habeas petition. Aplt.
Combined Opening Br. & Appl. for COA at 13.
We deny a COA. Even if the IAD applied here, “rights created by the IAD are
statutory, not fundamental, constitutional, or jurisdictional in nature.” Knox v. Wyo.
Dep’t of Corr., 34 F.3d 964, 967 (10th Cir. 1994) (internal quotation marks omitted).
While “special circumstances” may exist to permit an IAD collateral attack, Torres has
not alleged any. See id.
VIII. Replacement Counsel
In his state postconviction petition, Torres argued that the trial judge violated his
rights to effective assistance of counsel and due process by refusing to appoint a
replacement public defender after the judge learned his initial public defender had
unsuccessfully represented Demetrio Salas. According to Torres, the judge’s refusal
required him to later hire his own defense attorney, “who later proved to be ineffective.”
R., Vol. I at 126. The state court summarily denied the claim.
The magistrate judge rejected the claim, stating that it raised only an issue of state
law. The district judge deemed the issue waived due to an inadequate objection.
We conclude that a COA is not warranted. Although Torres identified federal
constitutional grounds for relief, we are aware of no U.S. Supreme Court decision
extending either of those grounds to the circumstances of which Torres complains. See
28 U.S.C. § 2254(d)(1) (requiring that the state court decision be either contrary to, or an
unreasonable application of, “clearly established Federal law, as determined by the
13

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 14

Supreme Court of the United States”); Fairchild v. Trammell, 784 F.3d 702, 710
(10th Cir. 2015) (“Federal courts may not extract clearly established law from the general
legal principles developed in factually distinct contexts, and Supreme Court holdings
must be construed narrowly and consist only of something akin to on-point holdings.”
(citation and internal quotation marks omitted)).
IX. Motion to Dismiss Indictment
In his state postconviction petition, Torres complained that the trial court should
have dismissed his indictment because the District Attorney’s investigator misled the
grand jury. Specifically, the investigator testified to the grand jury that .22 caliber
revolvers hold only six bullets. This testimony was misleading, Torres claimed, because
it suggested more than one shooter fired the nine rounds into Ruben Perez’s window.
Also, the investigator had purportedly told Mexican officials he recovered a nine-shot .22
revolver during the investigation.
The magistrate judge rejected Torres’s claim on the basis that state law issues are
not cognizable grounds for federal habeas relief, Estelle v. McGuire, 502 U.S. 62, 67
(1991), and that Torres’s claim was mooted by his guilty verdicts, see United States v.
Mechanik, 475 U.S. 66, 70 (1986) (“[T]he petit jury’s subsequent guilty verdict means
not only that there was probable cause to believe that the defendants were guilty as
charged, but also that they are in fact guilty as charged beyond a reasonable doubt.”).
The district judge concluded that Torres had waived his objection to those determinations
by arguing only that he is entitled to relief “under actual judicial bias, miscarriage of

14

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 15

justice, actual innocence postconviction remedies rules/standard.” R., Vol. I at 639
(internal quotation marks omitted).
In his request for a COA, Torres complains that his requests for original grand jury
transcripts have been denied, he repeats the general objection he lodged in the district
court, and he contends that the investigator acted maliciously. None of these points
addresses whether a reasonable jurist could debate the district court’s determination that
Torres had waived his claim. We deny a COA.
X. Pretrial Detention
In his state postconviction petition, Torres claimed that his pretrial detention in a
New Mexico “level 6 disciplinary facility,” R., Vol. I at 128, amounted to cruel and
unusual punishment and interfered with his ability to communicate with defense counsel
by limiting his telephone and visitation privileges. The state court summarily denied the
claim.
The district court rejected the claim, explaining that restraints on a detainee’s
liberty can be imposed if the detainee poses flight or security risks. Further, the district
court noted, Torres was detained in a maximum security facility because he had fled to
Mexico and had a prior criminal history that included violent offenses. Also, there was a
dispute in the trial court as to whether Torres’s privileges had been restricted, as the
District Attorney denied ordering any such restrictions, and defense counsel indicated
that while prison restrictions had caused delays in her representation, she had some
access to Torres. Based on these circumstances, the district court found no constitutional
violation.
15

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 16

The Sixth Amendment “right to counsel plays a crucial role in the adversarial
system ..., since access to counsel’s skill and knowledge is necessary to accord
defendants the ample opportunity to meet the case of the prosecution.” Strickland, 466
U.S. at 685 (internal quotation marks omitted). But “[n]ot every restriction on counsel’s
time or opportunity to investigate or consult with his client or otherwise to prepare for
trial violates a defendant’s Sixth Amendment right to counsel.” Morris v. Slappy, 461
U.S. 1,11 (1983). “[W]hen an institutional restriction infringes a specific constitutional
guarantee ... the practice must be evaluated in the light of the central objective of prison
administration, safeguarding institutional security.” Bell v. Wolfish, 441 U.S. 520, 547
(1979).
Torres contends that “the facility denied counsel to confer with me.” Aplt.
Combined Opening Br. & Appl. for COA at 16. But he does not address the factual
dispute in the trial court regarding the extent of any interference with his ability to confer
with defense counsel. Nor does he address the reasonableness of prison restrictions in
light of his prior flight to Mexico or his prior criminal offenses. In short, Torres has not
demonstrated that the state postconviction court’s denial of his Sixth Amendment claim
was contrary to, or an unreasonable application of, Bell.

16

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

Page: 17

XI. Pleading Amendment
In his state postconviction petition, Torres claimed that “th[e] court ha[d] withheld
all discovery and proceedings from [him]... [and] ha[d] violated [his] due process rights
to know the accusations against [him]... [in order] to sabotage [his] appeals process.”
R., Vol. I at 130. Consequently, he prospectively requested leave to amend “for any and
all additional issues [he] [might] find once [he] [was] properly supplied with all
discovery, tape and copied proceedings, ever filed in this case.” Id. The state court
summarily denied relief.
In his federal habeas petition, Torres prospectively requested leave to amend if he
received the discovery items he claimed had been withheld in state court. The magistrate
judge recommended the request be denied as premature. Torres objected, but did not
address the magistrate’s recommendation. The district judge declared Torres’s objection
waived.
In his CO A request, Torres argues that his request to amend was not premature
because there was a violation of his rights to “know the accusation^] against [him]” and
to not have exculpatory evidence withheld. Aplt. Combined Opening Br. & Appl. for
COA at 17. We conclude that the district judge correctly characterized Torres’s objection
as non-responsive. Moreover, Torres’s federal habeas petition does not appear to
advance a claim for withheld discovery.

17

Appellate Case: 20-2029

Document: 010110465191

Date Filed: 01/14/2021

CONCLUSION

We deny a COA and dismiss this appeal
Entered for the Court
Per Curiam

18

Page: 18

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 1 of 20

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
NOE TORRES,
Petitioner,
v.

No. CV 19-00209 KWR/JHR

DWAYNE SANTISTEVAN, et al,
Respondents.
MEMORANDUM OPINION AND ORDER
OVERRULING OBJECTIONS AND ADOPTING MAGISTRATE
JUDGE’S PROPOSED FINDINGS AND RECOMMENDED DISPOSITION
THIS MATTER is before the Court under 28 U.S.C. § 636(b)(1) (2018) on the Magistrate
Judge’s Proposed Findings and Recommended Disposition, (Doc. 13) and on Petitioner Noe
Torres’ Objections to the Magistrate Judge’s Proposed Findings and Recommended Disposition
(Doc. 18). The Court overrules Petitioner’s Objections and adopts the Magistrate Judge’s Proposed
Findings and Recommended Disposition.
L

Factual and Procedural Background
On the morning of September 15,2005, ten-year-old Carlos Perez was shot and killed while

he was asleep in his bedroom, which he shared with his older brother, Ruben Perez, the intended
victim. (Doc. 8-2, p. 24). The day before the shooting, Ruben was involved in an altercation with
Orlando Salas. (Id.). Later that night or in the early hours of September 15th, one of Orlando’s
brothers, Demitrio Salas and an associate, David Griego, arrived at the apartment complex where
Ruben lived. (Id.). Petitioner and another of Orlando’s brothers, Edward Salas, arrived separately.
(Id.). Witnesses observed the four men greet one another before disappearing from sight. (Id.).
Nine shots were fired into Ruben’s bedroom. (Id.). Later, a witness heard Edward tell Petitioner,

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 2 of 20

“We didn’t get him. We got the little boy.” (Id.). Petitioner replied, “Are you sure it was the little
boy?” (Id.). The next day, Petitioner fled to Mexico. (Id.).
On October 7,2005, Petitioner was indicted on one count of first-degree murder; one count
of attempted first-degree murder; and one count of shooting at a dwelling or occupied building.
(Doc. 12-1, pp. 26-27). However, Petitioner remained at large until early 2012, when he was
apprehended in Mexico. (Id., p. 43). On July 11, 2012, Petitioner was extradited from Mexico and
was subsequently arraigned on the charges in the October 7, 2005 indictment. (Id., p. 67). On
January 11, 2013, a Superseding Indictment was filed which charged Petitioner with: first-degree
murder; attempted first-degree murder; shooting at a dwelling or occupied building; conspiracy to
commit first-degree murder; conspiracy to shoot at a dwelling or occupied building; possession of
a firearm by a felon; and intimidation of a witness. (Id, pp. 176-178). A jury found Petitioner
guilty on all counts. (Doc. 12-4, pp. 2-8). Petitioner was sentenced to a total term of life
imprisonment plus 31.5 years, which included a three-year habitual offender enhancement. (Doc.
12-4, pp. 85-88).
Petitioner appealed his conviction to the New Mexico Supreme Court. (Doc. 1, pp. 97-98).
The New Mexico Supreme Court affirmed Petitioner’s convictions for first-degree murder,
attempted first-degree murder, and conspiracy to commit first-degree murder, reversed Mr. Torres’
convictions for shooting at a dwelling and conspiracy to shoot at a dwelling as violative of
constitutional protections against double jeopardy, and vacated the habitual offender enhancement
of his sentence. (Id., p. 98). Subsequently, Petitioner filed a Petition for a Writ of Habeas Corpus
in the state district court. (Id, pp. 113-117). The state district court summarily dismissed
Petitioner’s habeas corpus petition on October 9, 2018. (Doc. 1, pp. 166-170). Petitioner’s
subsequent Petition for a Writ of Certiorari was denied by the New Mexico Supreme Court on

2

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 3 of 20

November 7, 2018. (Doc. 1, p. 185).
In his § 2254 Petition, Petitioner raises the following grounds for relief: (1) the trial court
erred in denying his motion for directed verdict because there was insufficient evidence to support
his convictions (Doc. 1, pp. 5,16-17); (2) his convictions violate constitutional protections against
double jeopardy (Doc. 1, pp. 7, 18-19); (3) the trial court erred in using a time-barred prior felony
conviction to impose a habitual offender sentence enhancement (Doc. 1, pp. 8, 20);1 (4) the trial
court erred in not allowing him to cross-examine a state’s witness about a prior bad act (Doc. 1,
pp. 10, 21-22); (5) the trial court erred in allowing him to be shackled to the table during trial (Doc.
1, pp. 23-24); (6) he was denied effective assistance of counsel (Doc. 1, pp. 26-27); (7) the
indictment should have been dismissed due to violations of the Interstate Agreement on Detainers
(IAD), NMSA 1978, § 31-5-12 (1971) (Doc. 1, pp. 28-29); (8) the trial court erred in denying his
pro se motion for recusal (Doc. 1, pp. 30-31); (9) the indictment should have been dismissed
because a State’s witness misled and manipulated the grand jury (Doc. 1, pp. 32-33); (10) he was
unconstitutionally subject to pretrial detention at the Penitentiary of New Mexico (Doc. 1, pp. 3436); and (11) he should be permitted to amend his petition to include “any additional issues (in the
event he received the) full discovery, tape proceedings and copied transcript proceeding” that he
requested. (Doc. 1, p. 39).
In the PFRD, the Magistrate Judge found that Petitioner’s claims regarding alleged IAD
violations, pretrial detention, recusal, errors in the grand jury proceedings, and Petitioner’s request
for leave to amend his petition were not reviewable under § 2254. (Doc. 13, pp. 6-13). The
Magistrate Judge considered the remaining claims in the Petition, explaining that under 28 U.S.C.

1 The three-year habitual offender sentence enhancement was vacated by the New Mexico Supreme Court on
Petitioner’s direct appeal (Doc. 1, p. Ill), and Petitioner concedes that he has obtained relief relative to this issue
(Doc. 1. p. 5). Accordingly, it was not addressed in the PFRD. (Doc. 13, p. 6, n. 2).

3

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 4 of 20

§ 2254(d) Petitioner must show that the state courts’ decisions were contrary to or an unreasonable
application of clearly established federal law, or that they were unreasonable determinations of fact.
(Doc. 13, pp. 14-15). The Magistrate Judge found that the state courts’ decisions regarding the
sufficiency of the evidence, double jeopardy, the leg restraints used during trial, ineffective assistance
of counsel, and denial of the opportunity to cross examination a state’s witness were not contrary to or
an unreasonable application of clearly established federal law and did not result from unreasonable
determinations of fact in light of the evidence presented. {Id., pp. 15-31). The Magistrate Judge also
concluded that Petitioner was not entitled to discovery or appointment of counsel. {Id., pp. 32-34).
In the PFRD, the Magistrate Judge notified the parties of their right to file written objections
within fourteen (14) days after service of the PFRD and advised that filing of written objections was
necessary to preserve any issue for appellate review of the PFRD. {Id., p. 35). After an extension of
time, Petitioner filed written objections to the PFRD on January 30,2020.2 (Doc. 18). Respondents did
not object to the PFRD or respond to Petitioner’s objections.
II.

Legal Standards Governing Objections to the Magistrate Judge’s Proposed
Findings and Recommended Disposition
Under 28 U.S.C. § 636(b)(1)(C), the Court conducts a de novo review of any objections to

the Magistrate Judge’s PFRD. To resolve an objection to the PFRD,-the Court “must determine de
novo any part of the magistrate judge’s disposition that has been properly objected to. The district
judge may accept, reject, or modify the recommended disposition; receive further evidence; or
return the matter to the magistrate judge with instructions.” Fed. R. Civ. P. 72(b)(3). A party’s
objections to the PFRD must be “both timely and specific to preserve an issue for de novo review

2 On December 16,2019, Petitioner moved for an extension of time to file his written objections. (Doc. 14). He also
filed Summary Objections (Doc. 15), to be considered should his request for an extension be denied. In granting the
requested extension on January 10, 2020, the Court gave Petitioner seventeen days from the entry its Order to file his
written objections. (Doc. 17). Accordingly, the deadline for Petitioner’s written objections was January 30, 2020, after
including three days for service by mailing. See Fed. R. Civ. P. 6(d). The objections timely filed on January 30,2020,
were also titled “Summary Objections, " (Doc. 18) and are nearly identical in substance to the written objections filed
December 16, 2020. (Id.).
4

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 5 of 20

by the district court or for appellate review.” United States v. One Parcel of Real Prop., with
Buildings, Appurtenances, Improvements, and Contents, Known as: 2121 East 30th Street, Tulsa,
Okla., 73 F.3d 1057, 1059 (10th Cir. 1996) {“One Parcel"). An objection must be sufficient to
focus the Court on the factual and legal issues actually in dispute. Id. at 1060. Issues raised for the
first time in an objection to the PFRD are deemed waived. Marshall v. Chater, 75 F.3d 1421, 1426
(10th Cir. 1996).
III.

Insufficient Objections
In objecting to the Magistrate Judge’s findings and recommendations, Petitioner makes

several vague and conclusory objections that are insufficient to alert the Court to the factual and
legal issues in dispute. These objections are outlined below.
With respect to Petitioner’s claims that the trial judge should have recused himself and that
false testimony was presented to the grand jury, the Magistrate Judge found that the claims each
presented an issue of state law for which federal habeas relief was not available. (Doc. 13, pp. 1112). Petitioner objects, stating that he is entitled to relief on those claims “under actual judicial
bias, miscarriage of justice, actual innocence postconviction remedies rules/standard.” (Doc. 18,
p. 5). The asserted basis for relief on Petitioner’s state law claims is not clear from the language
of this objection. To the extent that Petitioner suggests that he is entitled to relief on the recusal
claim because the issue was preserved in the state habeas proceedings, Petitioner does not explain
how preservation of an issue for federal habeas review entitles Petitioner to federal habeas relief.
(Id., pp. 5, 13).
As to Petitioner’s request to amend his federal habeas petition, the Magistrate Judge found
that the request was premature because it was not made by formal motion, did not state the grounds
for the request, and did not inform the parties or the Court of the basis for the proposed amendment.

5

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 6 of 20

(Doc. 13, pp. 12-13). Petitioner objects, stating that the state court record, if reviewed properly,
“will demonstrate that the trial court’s resolution was contrary to clearly established 4th, 5th, 6th,
8th, & 14th Constitutional Amendments.” (Doc. 18, pp. 5-6). Petitioner further states that “the state
courts along with [the Magistrate Judge’s] ‘factual findings’ are INCORRECT and must stand
rebutted by the clear and convincing evidence in [the record]. Unreasonable application and
adjudication by State Court exists in State of New Mexico v. Noe Torres.” (Id., p. 6). It is not clear
how this objection relates to Petitioner’s request to amend his Petition or the Magistrate Judge’s
determination that his request was premature.
Regarding Petitioner’s claim that being placed in leg restraints during state court
proceedings deprived him of a fair trial, the Magistrate Judge found that the leg restraints did not
undermine the presumption of Petitioner’s innocence since they were not visible to the jury and
that the leg restraints did not interfere with Petitioner’s ability to participate in his defense. (Doc.
13, pp. 24-25). Petitioner objects, stating, “Presumption of Innocence was undermined! Please
review record.” (Doc. 18, p. 9). This conclusory objection does not give any indication of the
factual or legal objection to the Magistrate Judge’s determination on this issue.
Petitioner objects to the Magistrate Judge’s conclusion that the trial court did not err in
limiting cross examination of a state’s witness, arguing that the Magistrate Judge “again is
demonstrating Actual Judicial Bias against my person.” (Doc. 18, p. 10). However, Petitioner does
not provide any factual support for this allegation. Petitioner also argues, for the first time, that the
alleged error in limiting the cross examination deprived him of his right to create reasonable doubt
but does not explain how the testimony sought through the excluded cross examination could have
done so. (Id).
Finally, Petitioner’s objects to the Magistrate Judge’s conclusion that Petitioner was not

6

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 7 of 20

entitled to appointment of counsel under the Rules Governing § 2254 Proceedings. (Doc. 18, p.
11). Petitioner merely states that he “has demonstrated entitlement to appointment of counsel.
(Doc. 18, p. 11).
These objections do not address the legal or factual bases for the Magistrate Judge’s
findings and recommendations, do not provide sufficient detail to alert the Court to the disputed
factual and legal issues, and are therefore insufficient to preserve the issues outlined above for de
novo review. See One Parcel, 11 F.3d at 1059-60. Further, to the extent that Petitioner has raised
issues for the first time in his objections, de novo review of those issues has been waived. Marshall,
75 F.3d at 1426.
IV.

De Novo Review of Petitioner’s Remaining Objections

A. The Magistrate Judge Correctly Concluded That Petitioner’s Claims Regarding
Alleged IAD Violations and Unconstitutional Pretrial Detention are not Reviewable
Under § 2254
1. Petitioner’s IAD Claim is Not Cognizable Under § 2254
Petitioner initially claimed that the state violated the IAD by not bringing him to trial within
120 days of his extradition from Mexico. (Doc. 1. p. 28). The Magistrate Judge found that
Petitioner had not shown or even alleged special circumstances sufficient to bring his IAD claim
within the scope of those reviewable under § 2254 and that the IAD is not applicable under the
facts of this case because Petitioner was not extradited to New Mexico pursuant to an interstate
detainer. (Doc. 13, pp. 6-7). Petitioner objects, arguing that he has shown special circumstances
sufficient to bring his IAD claim within the scope of those reviewable under § 2254. (Doc. 18, p.
4).
As the Magistrate Judge explained in the PFRD, the IAD creates uniform procedures for
lodging and executing a detainer, which requires a state to hold a prisoner after the completion of

7

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 8 of 20

his sentence so that he can be transferred to another state to face pending charges for a different
crime. Alabama v. Bozeman, 533 U.S. 146, 148 (2001). The rights afforded by the IAD are
statutory rather than fundamental or constitutional. Carchman v. Nash, 473 U.S. 716, 719 (1985).
Therefore, absent special circumstances, IAD claims are not cognizable under § 2254. Carchman,
473 U.S. at 719. Special circumstances are fundamental defects which inherently result in a
complete miscarriage ofjustice or omissions inconsistent with demands of fair procedure. Id.
A de novo review of the record reveals that Petitioner’s sole argument with respect to the
alleged IAD violation was that he was not brought to trial within 120 days of his extradition from
Mexico. (Doc. 1, p. 28). He has not alleged or produced any evidence to indicate that this delay
resulted in a complete miscarriage of justice or was inconsistent with demands of fair procedure.
Accordingly, Petitioner has failed to demonstrate special circumstances sufficient render his IAD
claim cognizable under § 2254.
Petitioner claims that the IAD “transfers into federal extradition laws with Mexico/United
States extradition treaties,” which constitutes special circumstances sufficient render his IAD
claim cognizable under § 2254. To the extent that Petitioner is suggesting that the IAD governs
extradition to the United States from Mexico, he is incorrect. As previously discussed, the IAD
governs interstate transfers where a prisoner is to face criminal charges in the receiving state.
Bozeman, 533 U.S. at 148. Issues concerning extradition between the United States and Mexico
are not controlled by the IAD but are governed by treaty. See Treaty Signed at Mexico City May
4,1978, Mex.-U.S., May 4,1978,31 U.S.T. 5059 (governing extradition between the United States
of America and the Mexican States).
Petitioner’s conclusory objection is not supported by the record or the relevant law and is
therefore insufficient to establish the applicability of the IAD to the facts of this case or to

8

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 9 of 20

demonstrate special circumstances which would bring his IAD claim within the scope of those
reviewable under § 2254. Carchman, 473 U.S. at 719. Petitioner’s objection on this issue is
overruled.
2. Petitioner’s Claim of Unconstitutional Pretrial Detention is Not Cognizable Under §
2254
Petitioner objects to the Magistrate Judge’s findings that (1) his claim that the conditions
of his pretrial detention violated the protections of the Eighth Amendment against cruel and
unusual punishment was not cognizable under § 2254 and (2) he failed to establish that the
conditions of his pretrial detention were unconstitutional. (Doc. 13, pp. 4-5).
As discussed in the PFRD, challenges to conditions of confinement, as opposed to the
legality of confinement, are appropriately brought in civil rights actions, not in habeas proceedings.
See Preiser v. Rodriguez, 411 U.S. 475, 484 (1973) (“[T]he essence of habeas corpus is an attack
by a person in custody upon the legality of that custody, and [] the traditional function of the writ
is to secure release from illegal custody.”); Palma-Salazar v. Davis, 677 F.3d 1031, 1035 (10th
Cir. 2012) (“It is well-settled law that prisoners who wish to challenge only the conditions of their
confinement...must do so through civil rights lawsuits...not through federal habeas proceedings.”
(alterations in original) (internal quotation marks and citation). Petitioner does not dispute that his
challenge addresses the conditions of his pretrial detention rather than its legality. (Doc. 18, pp. 45). He simply concludes, without citation to authority, that such a claim is cognizable under §
2254. This unsupported conclusion has no basis in fact or law. (Doc. 18, pp. 4-5).
As to merits of Petitioner’s constitutional claim, the state may have a legitimate
nonpunitive interest in ensuring a defendant’s presence at trial and may reasonably keep him in
custody pending trial if he proves a flight risk. See Blackmon v. Sutton, 734 F.3d 1237, 1241 (10th
Cir. 2013). “Likewise, the government may have a legitimate interest in ensuring the safety and
9

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 10 of 20

order of the facilities where it houses pretrial detainees.” Id. “Restraints bearing a reasonable
relationship to interests like these do not constitute punishment even if they are discomforting.”
Id.; see Bell, 441 U.S. at 540.
In considering the constitutionality of the conditions of pretrial detention, the Court
considers whether the restrictions in question are (1) imposed with an “expressed intent to punish
on the part of detention facility officials” (2) reasonably related “to any legitimate governmental
objective.” Blackmon v. Sutton, 734 F.3d 1237, 1241 (10th Cir. 2013); see Bell v. Wolfish, 441
U.S. 520, 538(1997).
A review of the state court record reveals factual disputes regarding the extent to which
Petitioner was restricted in his access to visitation and phone calls during pretrial detention. (Doc.
1, pp. 154-163). The record also reveals that Petitioner was transferred to the state penitentiary
after his arraignment due to concerns that he was a flight risk, having just been extradited from
Mexico where he was evading charges related to Carlos Perez’ murder, and due to safety concerns
related to Petitioner’s criminal history. (Doc. 12-1, pp. 47-50). Petitioner has not argued or
demonstrated that any restrictions imposed during his pretrial detention were imposed with a
punitive intent or were unrelated to a legitimate state interest. (Doc. 18, pp. 4-5).
And while Petitioner claims that the restrictions imposed during pretrial detention were so
severe that he was not allowed to confer with his counsel to prepare for trial, this claim is belied
by the record. In addressing the trial court on the subject of access to Petitioner, his trial counsel
stated that in the approximately 18 months during which she represented Petitioner she had limited
access to him, which prevented her from obtaining the names of potential character witnesses in a
timely manner. (CD 3/13/2015 8:32:20; 8:36:00).3 However, the trial judge found that the alleged

3 Pursuant to the Court’s Order to Produce State Court Record (Doc. 11), a CD containing audio recordings of the
hearings and the trial conducted in the underlying criminal case was produced and lodged with the Clerk of Court.

10

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 11 of 20

limited access and late discovery of potential character witnesses did not rise to the level of a
constitutional violation. (CD 3/13/2015 8:36:00 - 8:36:30).
For these reasons, the Court finds no error in the Magistrate Judge’s findings on this issue
and will overrule Petitioners objections.
B. The Magistrate Judge Correctly Determined that Petitioner was not Entitled to
Federal Habeas Relief on his Claims of Insufficiency of the Evidence, Double
Jeopardy, and Ineffective Assistance of Counsel
1. Federal Court Habeas Corpus Review Under 28 U.S.C. § 2254
A prisoner in state custody may seek federal habeas corpus relief under 28 U.S.C. § 2254.
Section 2254 provides that a “district court shall entertain an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a).
As amended by the Antiterrorism and Effective Death Penalty Act (“AEDPA”), 28 U.S.C. § 2254 sets
limits on the power of a federal court to grant an application for a writ of habeas corpus. If, as in this
case, the application includes a claim that has been adjudicated on the merits in state court proceedings,
§ 2254(d) expressly limits federal court review. Under § 2254(d), a habeas corpus application shall not
be granted with respect to such a claim unless the adjudication of the claim “(1) resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States”; or “(2) resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(1) and (2).
Under this standard, a federal habeas court “reviews the specific reasons given by the state
court and defers to those reasons if they are reasonable.” Wilson v. Sellers, 548 U.S.___, 138 S.Ct.
1188, 1191-92 (2018). The standard is highly deferential to the state court rulings and demands that

(Doc. 12).

11

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 12 of 20

the state court be given the benefit of the doubt. Harrington v. Richter, 562 U.S. 86, 101 (2011);
Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam). The standard is difficult for petitioners to
meet in federal habeas proceedings under 28 U.S.C. § 2254. Cullen v. Pinholster, 563 U.S. 170, 181
(2011).
Section 2254(d)(l)’s reference to “clearly established Federal law, as determined by the
Supreme Court of the United States” refers to the holdings of the Supreme Court’s decisions as of the
time of the relevant state-court decision. Williams v. Taylor, 529 U.S. 362, 412 (2000). Under §
2254(d)(1), a state-court decision is “contrary to” the Supreme Court’s clearly established law if it
“applies a rule that contradicts the governing law set forth in [Supreme Court] cases” or if it “confronts
a set of facts that are materially indistinguishable from a decision of [the] Court and nevertheless
arrives at a result different from [that] precedent.” Williams, 529 U.S. at 405-406. A state court need
not cite, or even be aware of, applicable Supreme Court decisions, “so long as neither the reasoning
nor the result of the state-court decision contradicts them.” Early v. Packer, 537 U.S. 3, 8 (2002) (per
curiam).
A state-court decision is an “unreasonable application” of clearly established Supreme Court
law if the decision “correctly identifies the governing legal rule but applies it unreasonably to the facts
of a particular prisoner’s case.” Williams, 529 U.S. at 407-08. A District Court undertakes this objective
unreasonableness inquiry in view of the specificity of the governing rule: “The more general the rule,
the more leeway courts have in reaching outcomes in case-by-case determinations.” Yarborough v.
Alvarado, 541 U.S. 652, 664 (2004). An unreasonable application of federal law is not the same as an
incorrect application of federal law. Williams, 529 U.S. at 410. A federal court may not issue a habeas
corpus writ simply because that court concludes the state-court decision applied clearly established
federal law erroneously or incorrectly-the application must also be unreasonable. Id. at 411;
Harrington, 562 U.S. at 98. The AEDPA authorizes issuance of a writ only in cases where there is no
possibility fair-minded jurists could disagree that the state court’s decision conflicts with Supreme
12

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 13 of 20

Court precedents. Harrington. 562 U.S. at 102.
2. Petitioner is Not Entitled to § 2254 Relief on the Basis of Insufficient Evidence
Petitioner objects to the Magistrate Judge’s conclusion that the evidence presented at
Petitioner’s trial was sufficient to support his convictions for first-degree murder, attempted firstdegree murder, conspiracy to commit murder, and unlawful transportation of a firearm. (Doc. 18,
pp. 6-8). Petitioner argues that there was a lack of evidence presented at trial from which the jury
could have inferred his guilt beyond a reasonable doubt and that the witnesses against him were
not credible. (Id).
In reaching his conclusions regarding the sufficiency of the evidence to support Petitioner’s
convictions, the Magistrate Judge relied on the factual determinations made by the New Mexico
Supreme Court. (Doc. 13, pp. 15-20). Relevant to Petitioner’s convictions for first-degree murder,
attempted first-degree murder, and conspiracy to commit first-degree murder, the New Mexico
Supreme Court determined that: Petitioner spent the day preceding the murder with Edward Salas,
who had a motive to kill Ruben based on the fight between Ruben and Edward’s brother Orlando
earlier that day (Doc. 8-2, pp. 2-3); Petitioner arranged a ride for himself and Edward to the
apartment complex where Ruben lived (Doc. 8-2, pp. 25, 45); Petitioner and Edward arrived at the
apartment complex at the same time as and shook hands with persons who arrived separately
before gunshots were heard (Doc. 8-2, pp. 25-26, 45); a shooter fired nine rounds into the Perez
residence from a position approximately two to three feet from Ruben’s bedroom window (Doc.
8-2, p. 46); immediately after shots were fired, Petitioner ran from the scene smelling like burned
matches (Doc. 8-2, pp. 4, 48); the smell of gun powder is similar to the smell of burned matches
(Doc. 832, p. 4); and when Edward informed Petitioner that they shot the wrong person, Petitioner
asked him if he was sure. (Doc. 8-2, pp. 26, 46).
In challenging the sufficiency of the evidence to support his convictions for first-degree
15

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 14 of 20

murder, first-degree attempted murder, and conspiracy to commit first-degree murder, Petitioner
relied on his own trial testimony that he was not present at the apartment complex at the time of
the shooting. (Doc. 1, pp. 16-17). Petitioner’s testimony does not negate the other testimonial
evidence that placed him at the scene. (Doc. 13, p. 19). Where the evidence presented supports
conflicting accounts, it is the jury’s job to resolve the conflict. See U.S. v. Bush, 405 F.3d 909, 919
(10th Cir. 2005) (recognizing that it is within the province of the jury, as the fact-finder, to resolve
conflicting testimony and make credibility determinations). As the Magistrate Judge noted, this
Court cannot second-guess the jury’s credibility determinations or “reassess the jury’s conclusions
about the weight of the evidence presented.” U.S. v. Johnson, 57 F.3d 968, 971 (10th Cir. 1995).
Rather, the Court’s review is sharply limited, and it must accept the jury’s resolution of the
evidence as long as it is within the bounds of reason. Barger v. Oklahoma, 238 Fed. Appx. 343,
345-46 (10th Cir. 2007) (unpublished). Here, it cannot be said that the jury’s conclusion that
Petitioner was present at the time of the shooting is outside the bounds of reason, given the witness
testimony that placed him at the scene.
In affirming Petitioner’s conviction for unlawful transportation of a firearm, the New
Mexico Supreme Court determined based on the evidence presented at trial, that Petitioner was a
convicted felon, that he admitted to driving Edward Salas around September 14, 2005, and that he
was aware that Edward had a gun in the vehicle. (Doc. 8-2, p. 49). Although Petitioner did not
challenge these factual determinations in his Petition, in his objections, Petitioner claims that he
was not aware that Edward had a gun while they were driving around together on September 14,
2005, and that he never made such an admission. (Doc. 18, pp. 7-8).
A review of the record reveals that Petitioner testified to the following during direct
examination: Petitioner was with his cousin and Edward during the day on September 14, 2005.

14

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 15 of 20

(CD 3/13/2015 8:42:42, 8:42:52). Edward asked Petitioner to give him a ride to Edward’s friend’s
house. (CD 3/13/2015 8:43:08, 8:44:05). Sometime after Edward returned to the vehicle,
Petitioner’s cousin told Petitioner that Edward had a gun. (CD 3/13/2015 8:45:26). Petitioner did
not see a gun. (CD 3/15/2015 8:45:28). Petitioner questioned Edward about having a gun and
Edward said, “It’s nothing. Don’t worry about it.” (CD 3/13/2015 8:45:45-8:45:56). Petitioner told
Edward that he could either go home with the gun or drop the gun off because Petitioner did not
want to be around the gun. (CD 3/13/2015 8:46:11-8:46:17; 8:46:52-8:47:02). Petitioner did not
think Edward took him seriously. (CD 3/13/2015 8:47:22).
Petitioner then drove to a house where he and his friends often hung out and played
dominos. (CD 3/13/2015 8:46:18-8:46:36, 8:48:46). When they arrived, Petitioner saw his friend
Shawn, with whom Edward did not get along. (CD 3/13/2015 8:48:46-8:49:07). Petitioner asked
Shawn not to start anything with Edward. (CD 3/13/2015 8:49:08-8:49:15). Petitioner was
concerned because he’d been told that Edward had a gun and because he’d observed Edward and
thought Edward was acting like he had a gun. (CD 3/13/2015 8:49:09-8:49:14). Later, Petitioner
heard Edward referring to Shawn, saying that he could just “handle him.” (CD 3/13/2015 8:50:198:50:26). Petitioner understood this to mean that Edward might shoot Shawn. (CD 3/13/2015
8:51:10-8:51:21). Petitioner asked Edward to leave. (CD 3/13/2015 8:51:57). Petitioner did not
think Edward would challenge him even though Edward had a gun, because Petitioner was not
afraid to get shot. (CD 3/13/2015 8:53:43-8:55:59). During cross examination, the prosecutor
asked Petitioner how he knew Edward had a gun, and Petitioner replied, “Because I was told he
had a gun.” (CD 3/13/2015 10:08:58 - 10:09:04).
This testimony does not constitute clear and convincing evidence sufficient to rebut the
New Mexico Supreme Court’s factual determination that Petitioner admitted that he was aware

15

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 16 of 20

that Edward had a gun in the vehicle while Petitioner was driving around with Edward on
September 14, 2005. See Black’s Law Dictionary 674 (10th ed. 2014) (defining “clear and
convincing evidence” as “[e]vidence indicating that the thing to be proved is highly probable or
reasonably certain.”); McManus v. Neal, 779 F.3d 634, 649 (7th Cir. 2015) (“The state court’s
factual determinations are cloaked with a presumption of correctness, and the presumption can be
overcome only by clear and convincing evidence. What this means is that we must be objectively
convinced that the record before the state court does not support the state court’s findings in
question.”) (internal quotation marks and citation omitted)).
To the extent that Petitioner claims that the prosecutor and trial judge manipulated the jury
and that the state courts’ determinations reflect judicial bias against him, Petitioner offers no
factual support for such conclusory allegations and they are, therefore, insufficient to undermine
the validity of the state courts’ determinations. (Doc. 18, pp. 6-7).
Petitioner has not demonstrated that, based on the evidence presented at trial, the jury could
not have reasonably concluded that the elements of first-degree murder, first-degree attempted
murder, conspiracy to commit murder, and unlawful transportation of a firearm were met, or that
New Mexico Supreme Court’s conclusion—that sufficient evidence supported his convictions—
constitutes an unreasonable application of federal law. The Court finds no error in the Magistrate
Judge’s findings on this issue and will overrule Petitioners objections.
3. Petitioner is Not Entitled to § 2254 Relief on the Basis of Double Jeopardy Violations
Petitioner objects to the Magistrate Judge’s conclusion that Petitioner’s convictions for
first-degree murder and attempted first-degree murder did not violate constitutional protections
against double jeopardy. (Doc. 18, p. 8). Petitioner appears to argue that because the New Mexico
Supreme Court held that his convictions for shooting at a dwelling and conspiracy to shoot at a

16

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 17 of 20

dwelling violated double jeopardy, all of his convictions should be reversed. (Id.). This argument
is unavailing.
In evaluating Petitioner’s double jeopardy claims on direct appeal, the New Mexico
Supreme Court concluded that Petitioner’s convictions for causing death or great bodily harm by
shooting at a dwelling and first-degree murder violated the double jeopardy clause because the
convictions arose from the same death. (Doc. 1, pp. 98-101). The court also concluded that
Petitioner’s separate convictions relative to the conspiracy to murder Ruben and the conspiracy to
shoot a dwelling to accomplish that goal violated double jeopardy because the evidence did not
show two separate conspiracies. (Id., pp. 103-104). Rather, the evidence showed one overarching
agreement, i.e., one conspiracy to kill. (Id.).
The court noted that the double jeopardy clause protects against multiple punishments for
the same crime. (Id., p. 98). Where two otherwise valid convictions are found to violate double
jeopardy, the remedy is to vacate one of the convictions, not both. (Id., p. 101). Typically, the
conviction carrying the shorter sentence is the one vacated. (Id.). Such a remedy satisfies
constitutional requirements by ensuring that only one punishment is administered for the crime at
issue. (Id.).
Having determined that Petitioner’s convictions for shooting at a dwelling and first-degree
murder violated double jeopardy, the New Mexico Supreme Court appropriately vacated
Petitioner’s conviction for shooting at a dwelling, which carried the shorter sentence. (Id., p. 99).
Likewise, having determined that Petitioner’s convictions for conspiracy to shoot at a dwelling
and conspiracy to commit first-degree murder violated double jeopardy, the court appropriately
vacated the conviction for conspiracy to shoot at a dwelling, which carried the lesser sentence.
(Id., p. 104).

17

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 18 of 20

Petitioner offers no factual or legal support for his assertion that all of his convictions
should have been vacated based on the double jeopardy violations identified by the New Mexico
Supreme Court. (Doc. 18, p. 8). Therefore, the Court overrules this objection.4
4. Petitioner is Not Entitled to § 2254 Relief on the Basis of Ineffective Assistance of
Counsel
Petitioner objects to the Magistrate Judge’s conclusion that he failed to show that his trial
counsel was ineffective by allegedly waiving his right to testify before the grand jury without his
consent or by failing to call certain character witnesses at trial. (Doc. 18, pp. 9-16). Petitioner’s
objections on this issue reiterate the bases for the ineffective assistance claim asserted in the
Petition, which were considered and addressed by the Magistrate Judge. (Doc. 13, pp. 26-27).
In order to establish a claim of ineffective assistance of counsel, a petitioner must
demonstrate: (1) that his counsel’s performance was deficient, and (2) that the deficient
performance prejudiced the defense. Strickland v. Washington, 466 U.S. 668, 687 (1984). To
establish deficient performance, the challenger must show that counsel’s representation fell below
an objective standard of reasonableness. Id. at 688. To establish prejudice, the movant must show
there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. Id. at 694. The likelihood of a different result must be
substantial, not just conceivable. Harrington, 562 U.S. at 112.
As the Magistrate Judge noted, Petitioner has not offered any factual basis for his claim
that his counsel waived his right to testify before the jury without his consent. (Doc. 13, p. 26).

4 The New Mexico Supreme Court also rejected Petitioner’s claim that his convictions for first-degree murder and
attempted first-degree murder violated double jeopardy because the convictions corresponded to crimes committed
against two distinct victims; Ruben as the victim of attempted first-degree murder and Carlos as the victim of firstdegree murder. {Id., pp. 101-102). The Magistrate Judge concluded that Petitioner did not show that this determination
involved an unreasonable application of federal law or was based on an unreasonable determination of fact. (Doc. 13,
pp. 21-23). Petitioner does not directly object to this finding. Therefore, it is not addressed here.

18

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 19 of 20

Moreover, Petitioner has not addressed the objective reasonableness of his counsel’s performance
or any prejudice resulting from this alleged error. (Id.). Similarly, with respect to Petitioner’s
ineffectiveness claim resulting from counsel’s failure to call certain character witnesses, Petitioner
has not identified any potential witnesses or demonstrated that but for counsel’s failure to call
them, the outcome of his trial would have been different. (Doc. 18, p. 10). Petitioner argues for the
first time in his objections that the failure of counsel to call character witnesses denied him the
opportunity to create reasonable doubt. (Id.). However, because Petitioner has not identified
potential witnesses or articulated how their testimony could have created reasonable doubt, this
argument is unavailing. Petitioner has not met his burden under Strickland.
As to counsel’s admission of ineffective assistance, personal opinions of trial counsel and
other attorneys regarding what constitutes effective assistance are not dispositive and have little
weight. Newland v. Hall, 521 F.3d 1162, 1208 (11th Cir. 2008). This is especially true where, as
here, the petitioner has not demonstrated either unreasonable performance or prejudice. See id.;
Strickland, 466 U.S. at 687. Petitioner’s objections to the Magistrate Judge’s findings on this issue
are overruled.
5. Petitioner not Demonstrated That he is Entitled to Discovery
Petitioner objects to the Magistrate Judge’s findings that discovery is not warranted in this
case because review of the § 2254 Petition is limited to the record before the state court and because
Petitioner has not shown good cause to allow discovery even if review of his Petition were not so
limited. (Doc. 18, pp. 10-11). While Petitioner asserts that these conclusions are incorrect, he does
not articulate the legal or factual basis for his assertions. (Id.).
“A habeas petitioner, unlike the usual civil litigant in federal court, is not entitled to
discovery as a matter of ordinary course.” Bracy v. Gramley, 520 U.S. 899, 904 (1997). Under

19

Case 2:19-cv-00209-KWR-JHR Document 19 Filed 02/25/20 Page 20 of 20

Rule 6(a) of the Rules Governing § 2254 Proceedings, a judge “may, for good cause, authorize a
party to conduct discovery under the Federal Rules of Criminal Procedure or Civil procedure.” In
the context of a proceeding under § 2254, “good cause is established where specific allegations
before the court show reason to believe that the petitioner may, if the facts are fully developed, be
able to demonstrate that he is entitled to relief.” United States v. Moya-Breton, 439 F. App’x 711,
715-16 (10th Cir. 2011) (unpublished) (internal quotation marks and citation omitted).
The Magistrate Judge concluded that Petitioner had failed to put forth any specific
allegations that indicate he may be entitled to habeas relief if certain facts were fully developed.
(Doc. 13, p. 33). The Court understands Petitioner to argue that discovery of “original statements
and interrogation sessions of state witnesses” would lead to evidence relevant to his Petition. (Doc.
18, p. 11). However, this does not assist the Court in determining whether any specific facts, which
if fully developed, would demonstrate the Petitioner is entitled to relief. The Court finds no error
in the Magistrate Judge’s findings on this issue and will overrule Petitioners objection.
IT IS THEREFORE ORDERED that Mr. Torres’ Petition Under 28 U.S.C. § 2254for
Writ of Habeas Corpus by a Person in State Custody (Doc. 1), Motion to Proceed in Forma
Pauperis (Doc. 2), and Motion for Appointment of Counsel (Doc. 5) are DENIED.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.

KEA WrRIGG^r
UNITED STAGES DISTRICT JUDGE

20

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 1 of 35

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO

NOE TORRES,
Petitioner,
v.

CV 19-00209 JB/JHR

DWAYNE SANTISTEVAN, et al,
Respondents.

MAGISTRATE JUDGE’S PROPOSED FINDINGS AND RECOMMENDATION
This matter comes before the Court on Mr. Torres’ Petition Under 28 U.S.C. § 2254 for
Writ of Habeas Corpus by a Person in State Custody [Doc. 1], filed on March 11, 2019; Motion
to Proceed in Forma Pauperis [Doc. 2], filed March 11, 2019; and Motion for Appointment of
Counsel [Doc. 5], filed March 15, 2019. On March 13, 2019, United States District Judge James
O. Browning referred the matter for recommended findings and final disposition to United States
Magistrate Judge Jerry H. Ritter. [Doc. 4]. Upon review of the record, I propose to find that Mr.
Torres falls short on each required showing and recommend, after consideration of the parties’
objections if any, that the Court deny Mr. Torres’ requested relief.
I.

FACTUAL BACKGROUND

i

Early on the morning of September 15, 2005, nine shots were fired through a bedroom
window of an apartment in Clovis, killing ten-year-old Carlos Perez. [Doc. 8-2, p. 24]. Carlos had
been sleeping in the bedroom he shared with his older brother, Ruben Perez, who was the intended
victim of the shooting. \Id.\.

l

On the record currently before the Court, the facts in this section are undisputed, except as noted.

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 2 of 35

Two distinct groups of actors were involved in the shooting. [Id.]. The first group rode in
a Suburban to apartment complex where the shooting took place. [Id.]. This group included
Orlando Salas, Demetrio Salas, David Griego, and Melissa Sanchez. [Id.]. The second group
arrived at the apartment complex in a Camry and included Mr. Torres, Edward Salas, Krystal
Anson, and Ashley Garcia. [Id.].
The day before the shooting Orlando Salas and Ruben Perez were involved in an altercation
at their high school. [Id.]. Later that night or in the early hours of September 15th, Orlando and his
brother Demetrio picked up Melissa Sanchez and David Griego, in the Salas’ blue and white
Suburban. [Id.]. They drove into an alleyway near the apartment complex where Ruben lived. [Id.].
Orlando and Demetrio said they wanted to get that “sewer rat,” referring to Ruben. [Id.].
Demetrio then dropped off Melissa and Orlando at his friend Eric Gutierrez’s house nearby.
[Id., p. 25], Demetrio said he and David were “going to go do a mission” and left. [Id.]. The two
returned approximately five minutes later. [Id.]. Demetrio was holding a gun and appeared to be
“on an adrenaline rush.” [Id.]. He said, “We just went and blasted nine rounds into that sewer rat’s
house, pow, pow, pow, pow.” [Id.]. He told Melissa not to touch him because he had gunpowder
residue on him. [Id.]. Eric turned on his police scanner, and they heard that a child had been shot
and that police were looking for a blue and white Suburban. [Id.]. Eric heard someone say, “Oh
we got the wrong ... guy.” [Id.].
In the early hours of September 15, 2005, Mr. Torres, along with Krystal Anson, Ashley
Garcia, and Edward Salas (Demetrio and Orlando Salas’ older brother) rode in Krystal’s while
Camry to the apartment complex where Ruben Perez lived. [Id.]. They parked the Camry on the
street near the apartments. [Id.]. Mr. Torres and Edward got out and told Krystal and Ashley to
stay in the car. [Id.]. The Salas’ Suburban was parked down the street from the Camry. [Id.]. Two

2

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 3 of 35

people got out of the Suburban and met Mr. Torres and Edward at the apartment complex. [Id.].
Mr. Torres, Edward, and the two from the Suburban shook hands then disappeared from the sight.
[Id.].
Krystal and Ashley got out of the Camry and walked to a nearby park. [Id.]. The girls were
talking and smoking cigarettes at the park when they heard gunshots and ran back to the Camry.
[Id. at p. 26]. Mr. Torres and Edward also ran to the Camry. [Id.]. When Mr. Torres got to the car
he was described as excited and smelling like “burned matches.” [Id.]. Mr. Torres got into the
driver’s seat of the Camry, Edward got into the front passenger seat, the girls got into the back
seat, and they left the scene. [Id.]. Edward received a phone call and Mr. Torres turned up the
volume on the radio but Krystal heard Edward say to Mr. Torres, “We didn’t get him. We got the
little boy.” [Id.]. Mr. Torres replied, “Are you sure it was the little boy?” [Id.].
The next day, Mr. Torres and his girlfriend fled to Mexico. [Id.].
II.

PROCEDURAL BACKGROUND
On October 7, 2005, Mr. Torres was indicted on one count of first degree murder, contrary

to NMSA 1978, Section 30-2-1 (A) (1994), one count of attempted first degree murder, contrary to
NMSA 1978, Sections 30-2-1 (A) and 30-28-1 (1963), and one count of shooting at a dwelling or
occupied building, contrary to NMSA 1978, Section 30-3-8(A) (1993). [Doc. 12-1, pp. 26-27].
Mr. Torres failed to appear for arraignment on October 17, 2005, and a bench warrant was
issued on October 19, 2005. [Doc. 12-1, p. 38]. Mr. Torres remained at large until early 2012,
when he was apprehended in Mexico. [Doc. 12-1, p. 43]. On July 11, 2012 Mr. Torres was
extradited from Mexico and was subsequently arraigned on the charges in the October 7, 2005
indictment. [Doc. 12-1, p. 67].
On January 11, 2013, a Superseding Indictment was filed which charged Mr. Torres with

3

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 4 of 35

one count of first degree murder, contrary to Section 30-2-1 (A), one count of attempted first degree
murder, contrary to Sections 30-2-1 (A) and 30-28-1, one count of shooting at a dwelling or
occupied building, contrary to Section 30-3-8(A), one count of conspiracy to commit first degree
murder, contrary to Section 30-2-l(A) and NMSA 1978, Section 30-28-2 (1979), one count of
conspiracy to shoot at a dwelling or occupied building, contrary to Sections 30-3-8(A) and 30-282, possession of a firearm by a felon, contrary to NMSA 1978, Section 30-7-16 (2001), amended
by NMSA 1978, § 30-7-16 (2019), and intimidation of a witness, contrary to NMSA 1978, Section
30-24-3(A)(3) (1997). [Doc. 12-1, pp. 176-178]. A jury found Mr. Torres guilty on all counts.
[Doc. 12-4, pp. 2-8]. Mr. Torres was sentenced to a total term of life imprisonment plus 31.5
years, which included a three-year habitual offender enhancement. [Doc. 12-4, pp. 85-88].
Mr. Torres appealed his conviction to the New Mexico Supreme Court arguing that: (1)
several of the convictions violated constitutional protections against double jeopardy [Doc. 1, p.
97]; (2) the convictions were not supported by sufficient evidence [Doc. 1, p. 97]; (3) the district
court erred in not allowing him to cross-examine a witness about a prior bad act [Doc. 1, p. 97];
(4) his constitutional rights were violated when the district court did not allow him to attend sidebar
conferences with his counsel and because he was shackled to the table during the trial [Doc. 1, pp.
97-98]; and (5) a prior felony was unlawfully used to impose a habitual offender sentence
enhancement [Doc. 1, p. 98].
The New Mexico Supreme Court affirmed Mr. Torres’ convictions for first-degree murder,
attempted first-degree murder, and conspiracy to commit first-degree murder, reversed Mr. Torres’
convictions for shooting at a dwelling and conspiracy to shoot at a dwelling as violative of
constitutional protections against double jeopardy, and vacated the habitual offender enhancement
of his sentence. [Doc. 1, p. 98],

4

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 5 of 35

On March 20, 2018, the state district court entered an Amended Judgment, Sentence, and
Commitment to reflect the reversal of Mr. Torres’ convictions for shooting at a dwelling and
conspiracy to shoot at a dwelling and revising his sentence to life imprisonment plus 19.5 years,
with credit for the period for which Mr. Torres had already been confined. [Doc. 1, pp. 127-130].
Subsequently, Mr. Torres sought post-conviction relief by filing a Petition for a Writ of
Habeas Corpus in state court on July 12, 2018. [Doc. 1, pp. 113-117], Mr. Torres argued that: (1)
he was denied effective assistance of counsel [Doc. 1, pp. 119-120]; (2) the indictment should have
been dismissed due to violations of the Interstate Agreement on Detainers (IAD), NMSA 1978, §
31-5-12 (1971) [Doc. 1, p. 121]; (3) the trial court erred in denying his pro se motion for recusal
[Doc. 1, p. 122]; (4) the indictment should have been dismissed because a State’s witness
manipulated the grand jury [Doc. 1, p. 124]; (5) he was unconstitutionally subject to pretrial
detention at the Penitentiary of New Mexico [Doc. 1, pp. 124-125]; and (6) he should be granted
leave to amend his petition to include “any additional issues [in the event he received the] full
discovery, tape proceedings and copied transcript proceeding” that he requested. [Doc. 1, p. 126].
The state district court summarily dismissed Mr. Torres’ habeas corpus petition on October 9,
2018. [Doc. 1, pp. 166-170]. Mr. Torres’ subsequent Petition for a Writ of Certiorari was denied
by the New Mexico Supreme Court on November 7, 2018. [Doc. 1, p. 185].
Mr. Torres filed the instant Petition on March 11, 2019, bringing forth the claims raised in
his direct appeal to the New Mexico Supreme Court as well as the claims brought in his state
habeas petition. [Doc. 1, pp. 3-45]. Specifically, Mr. Torres raises the following grounds for relief:
(1) the trial court erred in denying his motion for directed verdict because there was insufficient
evidence to support his convictions [Doc. 1, pp. 5,16-17]; (2) his convictions violate constitutional
protections against double jeopardy [Doc. 1, pp. 7, 18-19]; (3) the trial court erred in using atime-

5

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 6 of 35

barred prior felony conviction to impose a habitual offender sentence enhancement [Doc. 1, pp. 8,
20];2 (4) the trial court erred in not allowing him to cross-examine a state’s witness about a prior
bad act [Doc. 1, pp. 10, 21-22]; (5) the trial court erred in allowing him to be shackled to the table
during trial [Doc. 1, pp. 23-24]; (6) he was denied effective assistance of counsel [Doc. 1, pp. 2627]; (7) the indictment should have been dismissed due to IAD violations [Doc. 1, pp. 28-29]; (8)
the trial court erred in denying his pro se motion for recusal [Doc. 1, pp. 30-31]; (9) the indictment
should have been dismissed because a State’s witness misled and manipulated the grand jury [Doc.
1, pp. 32-33]; (10) he was unconstitutionally subject to pretrial detention at the Penitentiary of
New Mexico [Doc. 1, pp. 34-36]; and (11) he should be permitted to amend his petition to include
“any additional issues [in the event he received the] full discovery, tape proceedings and copied
transcript proceeding” that he requested. [Doc. 1, p. 39].
Because Mr. Torres filed his Petition after April 24, 1996 it is subject to the terms of the
Antiterrorism and Effective Death Penalty Act (AEDPA). For purposes of the “in custody”
requirement of 28 U.S.C § 2254 (2012), as amended AEDPA, Respondents concede that Petitioner
was in custody at the filing of the Petition and the Answer. [Doc. 8, pp. 3-4],
III.

ANALYSIS

A.

Mr. Torres’ Claims Regarding Alleged IAD Violations, Pretrial Detention, Recusal,
Errors in the Grand Jury Proceedings, and Mr. Torres’ Request for Leave to Amend
His Petition Are Not Reviewable Under § 2254
1. Mr. Torres’ Has Not Shown “Special Circumstances” Sufficient to Render His IAD
Claim Cognizable Under § 2254
Forty-eight States, the Federal Government, and the District of Columbia have entered into

the IAD, 18 U.S.C. App. § 2, p. 692, an interstate compact. Alabama v. Bozeman, 533 U.S. 146,

2 The three-year habitual offender sentence enhancement was vacated by the New Mexico Supreme Court on Mr.
Torres’ direct appeal [Doc. 1, p. Ill], and Mr. Torres concedes that he has obtained relief relative to this issue [Doc.
1. p. 5]. Accordingly, it is not addressed here.

6

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 7 of 35

148 (2001). The I AD “creates uniform procedures for lodging and executing a detainer, i.e., a legal
order that requires a State in which an individual is currently imprisoned to hold that individual
when he has finished serving his sentence so that he may be tried by a different State for a different
crime.” Id. To this end, the IAD “(1) gives a prisoner the right to demand a trial within 180 days”;
and “(2) gives a State the right to obtain a prisoner for purposes of trial, in which case the State (a)
must try the prisoner within 120 days of his arrival, and (b) must not return the prisoner to his
original place of imprisonment prior to that trial.” Bozeman, 533 U.S. at 151 (internal quotation
marks and citation omitted).
Because the rights afforded by the LAD are statutory rather than fundamental or
constitutional, IAD claims are not cognizable under § 2254 unless “special circumstances,” i.e., “a
fundamental defect which inherently results in a complete miscarriage of justice or omissions
inconsistent with demands of fair procedure” exist. Carchman v. Nash, 473 U.S. 716, 719 (1985).
Here, Mr. Torres asserts that the state violated the IAD by not bringing him to trial within
120 days of his extradition to New Mexico. [Doc. 1. p. 28]. However, Mr. Torres has not shown,
or even alleged any “fundamental defect which inherently results in a complete miscarriage of
justice or omissions inconsistent with demands of fair procedure” sufficient to bring his IAD claim
within the scope of those reviewable under § 2254.
Even if Mr. Torres had shown “special circumstances” such that his IAD claim was
reviewable under § 2254, the record does not reflect and Mr. Torres does not allege that he was
serving a criminal sentence in another state at the time that he was extradited to New Mexico or
that his extradition resulted from a related detainer. Thus, the IAD, which governs the transfer of
custody of a state prisoner from one state to another to face pending charges, does not apply under
the facts before the Court.

7

Case 2:19-CV-00209-KWR-JHR Document 13 Filed 12/04/19 Page 8 of 35

2. Mr. Torres’ Claim That he Was Subject to Unconstitutional Pretrial Detention is Not
Cognizable Under § 2254
Mr. Torres alleges that his pretrial detention at the Penitentiary of New Mexico violated
the protections of the Eighth Amendment against cruel and unusual punishment. [Doc. 1, pp. 3435]. Mr. Torres makes reference to his motion filed in the state district court in which Mr. Torres
objected to the restrictions of his confinement. Specifically, Mr. Torres challenged restrictions he
alleged were placed on his access to personal property, visitation and telephone calls. [Doc. 1, pp.
154- 157].
Mr. Torres’ claim regarding his pretrial detention constitutes a challenge to the conditions
of confinement, which is not a proper claim under § 2254. See Preiser v. Rodriguez, 411 U.S. 475,
484 (1973) (“T]he essence of habeas corpus is an attack by a person in custody upon the legality
of that custody, and that the traditional function of the writ is to secure release from illegal
custody.”); Palma-Salazar v. Davis, 677 F.3d 1031, 1035 (10th Cir. 2012) (“It is well-settled law
that prisoners who wish to challenge only the conditions of their confinement...must do so through
civil rights lawsuits...not through federal habeas proceedings.” (alterations in original) (internal
quotation marks and citation).
Moreover, it is noteworthy that Mr. Torres is no longer in pretrial detention. Nor is he
imprisoned at the Penitentiary of New Mexico.3 And he makes no claim that he is currently
restricted in his access to personal property, visitation and telephone calls. [Doc. 1, pp. 34-35]. See
Murphy v. Hunt, 455 U.S. 478, 481 (1982) (per curiam) (holding that a claim to pretrial bail was
moot once defendant was convicted); United States v. Ream, 506 F. App'x 842, 845 (10th Cir.
2013) (unpublished) (holding that the petitioner’s claim that he should not have been detained prior

3 Mr. Torres is currently serving his sentence at the Lea County Correctional Facility in Hobbs, New Mexico. [Doc.

8

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 9 of 35

to trial was mooted by his conviction); Williams v. Slater, 317 F. App'x 723, 725 (10th Cir. 2008)
(unpublished) (holding that the petitioner’s conviction and sentence have mooted his request for
an order to show cause for his pretrial confinement); United States v. Meyers, 95 F.3d 1475, 1488
(10th Cir. 1996) (holding district court's failure to hold a timely pretrial release hearing was moot
in light of defendant's subsequent conviction); see also Thorne v. Warden, Brooklyn House of
Detentionfor Men, 479 F.2d 297, 299 (2d Cir. 1973) (“Since [petitioner] is now held as a convicted
defendant rather than merely on a criminal charge not yet brought to trial, the issue as to the legality
of his continued pretrial detention has been mooted, and it therefore becomes unnecessary to
resolve the constitutional issues presented.” (emphasis in original)).
a. Even if Mr. Torres’ Claim Was Reviewable Under § 2254, Mr. Torres Has Not
Shown That His Pretrial Detention Was Unconstitutional
Challenges to pretrial conditions of confinement are analyzed under the Fourteenth
Amendment’s due process clause, rather than under the Eighth Amendment, “because the Eighth
Amendment is concerned with punishment, and a pretrial detainee may not be punished prior to
an adjudication of guilt.” Sanders v. Hopkins, 131 F.3d 152 (10th Cir. 1997). “The central inquiry
then becomes whether the challenged condition of confinement amounts to a punishment.” Id.
(internal quotation marks and citation omitted).
“Flistorically, the government has enjoyed the authority to detain until trial those
defendants who pose a flight risk.” Blackmon v. Sutton, 734 F.3d 1237, 1241 (10th Cir. 2013).
“And no doubt those who find themselves detained in this manner experience a great many
restrictions on their liberty—restrictions many of us would regard as punishment in themselves.”
Id. Whether such restrictions “pass, as a matter of law, from constitutionally acceptable to
constitutionally impermissible...turns on the answers to two questions.” Id. First, the Court
considers whether an “expressed intent to punish on the part of detention facility officials” exists.
9

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 10 of 35

Id.; see Bell v. Wolfish, 441 U.S. 520, 538 (1997). “If so, liability may attach. If not, a plaintiff
may still prove unconstitutional punishment by showing that the restriction in question bears no
reasonable relationship to any legitimate governmental objective.” Blackmon, 734 F.3d at 1241;
see Bell, 441 U.S. at 539.
The government may have a legitimate nonpunitive interest in ensuring a defendant's
presence at trial and may reasonably keep him in custody pending trial if he proves a flight risk.
See Blackmon, 734 F.3d at 1241. “Likewise, the government may have a legitimate interest in
ensuring the safety and order of the facilities where it houses pretrial detainees.” Id. “Restraints
bearing a reasonable relationship to interests like these do not constitute punishment even if they
are discomforting.” Id.; see Bell, 441 U.S. at 540.
It is not clear from the record whether and to what extent Mr. Torres’ access to telephone
calls and visitation were restricted during his pretrial detention. [Doc. 1, pp. 154-163]. Moreover,
Mr. Torres has not demonstrated or even argued here that the alleged restrictions were imposed
with an intent to punish and were not reasonably related to a legitimate state interest. [Doc. 1, pp.
34-35].

3. Mr. Torres’ Claim That the State Court Judge Should Have Recused Himself and
Mr. Torres’ Claim Regarding Erroneous Grand Jury Testimony Present State Law
Claims With no Basis for Federal Habeas Relief
Federal habeas relief is not available for errors of state law. Lewis v. Jeffers, 497 U.S. 764,
780 (1990). A petitioner may not “transform a state-law issue into a federal one merely by asserting
a violation of due process.” Langford v: Day, 110 F.3d 1380, 1389 (9th Cir. 1996). It is not the
province of the federal courts to re-examine state-court determinations of state-law questions.
Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). Absent a specific constitutional violation, federal
habeas review of state court errors is limited to whether the error “so infected the [proceeding]

10

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 11 of 35

with unfairness as to make the resulting conviction a denial of due process.” Lewis, 497 U.S. at
780 (quotation omitted).
a. Mr. Torres’ Claim That the State Court Judge Should Have Recused Himself Raises
a Question of State Law Not Cognizable on Federal Habeas
Mr. Torres argues that the state district court judge erred in not recusing himself from Mr.
Torres’ state habeas proceedings because the judge, who has also presided over the underlying
criminal proceedings, initially appointed an attorney to represent Mr. Torres in the criminal
proceedings who had a conflict of interest.4 [Doc. 1, p. 30]. Although Mr. Torres alleges a
constitutional violation with respect to the initial appointment of counsel, Mr. Torres does not raise
any violation of federal law or constitutional violation arising from the state district court judge’s
decision not to recuse himself from Mr. Torres state habeas proceedings. See Martin v. McKune,
986 F.2d 1428 (10th Cir. 1993) (recognizing that an attack on the impartiality of a state district
court judge in a habeas proceeding was a state law claim not reviewable on federal habeas where
no constitutional error is raised).
b. Mr. Torres’ Claim Regarding Erroneous Grand Jury Testimony Raises a Question
of State Law Not Cognizable on Federal Habeas
Mr. Torres claims that the trial court erred in denying his motion to dismiss the indictment
against him based on his allegations that a state investigator gave false testimony and manipulated
the grand jury. [Doc. 1, pp. 32-33].
Few issues concerning grand jury procedures are subject to federal habeas review. This is
generally so because, as the Supreme Court has “stated many times[,] federal habeas corpus relief
does not lie for errors of state law.” Estelle, 502 U.S. at 67. It is also in part because of the long-

4 The record reflects that after this issue was raised by Mr. Torres in the underlying criminal proceedings, new conflictfree counsel was appointed well in advance of trial. [Doc. 8-2, pp. 116-117],

11

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 12 of 35

settled law that “indictment by grand jury is not part of the due process of law guaranteed to state
criminal defendants by the Fourteenth Amendment.” Branzburg v. Hayes, 408 U.S. 665, 687-88
n. 25 (1972).5 The only due process inquiry concerning a grand jury indictment is whether it gives
the defendant sufficient notice of the charge. The notice issue is neither argued nor arguable here
because the crimes represented in the indictment are identical to the crimes represented in the petit
jurors’ verdict. [Doc. 12-1, p. 176; 12-4, pp. 2-8]; e.g., Hain v. Gibson, 287 F.3d 1224, 1232-32
(10th Cir. 2002); Johnson v. Gibson, 169 F.3d. 1239, 1252 (10th Cir.) (1999).
Where the notice requirement is satisfied, any alleged defects concerning the sufficiency
of the indictment or the grand jury procedures are essentially moot following a jury verdict of
guilty. See United States v. Mechanik, 475 U.S. 66, 70 (1986) (“[T]he petitjury’s subsequent guilty
verdict means not only that there was probable cause to believe that the defendants were guilty as
charged, but also that they are in fact guilty as charged beyond a reasonable doubt. Measured by
the petitjury’s verdict, then, any error in the grand jury proceeding connected with the charging
decision was harmless beyond a reasonable doubt.”); see also Tisthammer v. Williams, 49
Fed.Appx. 757, 765 (10th Cir. 2002) (unpublished) (acknowledging that the jury’s finding that the
defendant was guilty beyond a reasonable doubt alleviates the concern that the grand jury’s finding
of probable cause to charge was deficient).
4. Mr. Torres’ Request for Leave to Amend His Petition is Premature
Amendment of pleadings is governed by Federal Rule of Civil Procedure 15. 6 Because
Mr. Torres did not file an Amended Petition within 21 days of Respondents’ answer, he is not
entitled to amend as a matter of course. See Fed. R. Civ. P. 15(a)(1). Rather, Mr. Torres may only

5 Racial discrimination in the selection of grand jury members presents an exception to the general rule. Rose v.
Mitchell, 443 U.S. 545, 560-61 (1979).
6

Federal Rule of Civil Procedure 15 applies to § 2254 cases. Mayle v. Felix, 545 U.S. 644, 654 (2005).

12

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 13 of 35

amend his Petition with Respondents’ consent or this Court’s leave. Id. 15(a)(2).
Rule 15 provides that leave to amend should be freely given when justice so requires. Id.
“The liberal granting of motions for leave to amend reflects the basic policy that pleadings should
enable a claim to be heard on its merits.” Calderon v. Kansas Dep’t of Soc. & Rehab. Servs., 181
F.3d 1180, 1186 (10th Cir. 1999). This policy is not limitless and must be balanced against
Fed.R.Civ.P. 7(b)(1), which provides that any motion “shall be made in writing, shall state with
particularity the grounds therefor, and shall set forth the relief or order sought.” Calderon, 181
F.3d at 1186 (internal quotation marks and citation omitted).
In the spirit of Rule 15, the Tenth Circuit has held that failure to file a formal motion to
amend is not always fatal. See Calderon, 181 F.3d at 1186. However, any request to amend “must
give adequate notice to the court and the opposing party of the basis of the proposed amendment
before the court is required to recognize that a motion for leave to amend is before it.” Id. at 118687 (recognizing that “[Requiring notice to the court and the opposing party of the basis for the
motion reduces potential prejudice to either party and assures that the court can comprehend the
basis of the motion and deal with it fairly.” (internal quotation marks and citation omitted)).
Here, Mr. Torres requests leave to amend his Petition to include “any additional issues” in
the event he receives the “full discovery, tape proceedings and copied transcript proceeding” that
he requested during his state habeas proceedings. [Doc. 1, p. 39]. Mr. Torres has not provided the
Court with a proposed Amended Petition or otherwise identified what additional issues may arise
upon receipt of such discovery that would justify an amendment. [Id.]. Accordingly, Mr. Torres’
request to amend is premature and should be denied for lack of adequate notice of the basis for
any proposed amendment. See Calderon, 181 F.3d at 1186-87; U.S. exrel. Custom Grading, Inc.
v. Great Am. Ins. Co., 952 F. Supp. 2d 1259, 1270 (D.N.M. 2013).

13

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 14 of 35

B.

Mr. Torres Has Not Demonstrated That he is Entitled to Relief Under § 2254
Federal courts have statutory authority under § 2254 to issue habeas corpus relief for

persons in state custody. See Harrington v. Richter, 562 U.S. 86, 97-98 (2011). The Antiterrorism
and Effective Death Penalty Act circumscribes review of federal habeas claims that were
adjudicated on the merits in state-court proceedings. Hooks v. Workman, 689 F.3d 1148, 1163
(10th Cir. 2012). A federal court may only grant relief from a state court decision where the
petitioner demonstrates that the trial court’s resolution of his claims was either contrary to clearly
established federal law or based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding. See 28 U.S.C. § 2254(d)(1), (2)). In analyzing
the state court’s decision, this Court may only review the record that was before the state court and
all factual findings are presumed correct unless rebutted by clear and convincing evidence. See 28
U.S.C. § 2254(e)).
Under § 2254(d)(1), the threshold question is whether the applicant is seeking to invoke a
rule of law that was clearly established by the Supreme Court at the time the conviction became
final. See Byrd v. Workman, 645 F.3d 1159, 1165 (10th Cir. 2011); see also Williams v. Taylor,
529 U.S. 362, 390 (2000). If the law was clearly established, then the court determines whether
the state court decision was “contrary to or involved an unreasonable application of that clearly
established law.” Byrd, 645 F.3d at 1165 (internal quotation marks and citation omitted).
First, a state-court decision is contrary to clearly established law if the state court applies a
rule different from the governing law set forth by the Supreme Court or if it decides a case
differently than the Supreme Court has done on a set of materially indistinguishable facts. See
Hooks, 689 F.3d at 1163. The state court is not required to cite to, or even be aware of, Supreme
Court decisions, “so long as neither the reasoning nor the result of the state-court decision

14

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 15 of 35

contradicts them.” Early v. Packer, 537 U.S. 3, 8 (2002).
Second, a state-court decision is an unreasonable application of clearly established federal
law when the state court identifies the correct governing legal principle from the Supreme Court’s
decisions but unreasonably applies that principle to the facts of a petitioner’s case. See Hooks, 689
F.3d at 1163. AEDPA precludes issuance of a writ simply because the federal court concludes in
its independent judgment that the state court applied the federal law erroneously or incorrectly.
See Byrd, 645 F.3d at 1166. Instead, the application must also be objectively unreasonable. See id.
In “deciding whether a state court’s decision involved an unreasonable application of
federal law or was based on an unreasonable determination of fact” a federal habeas court must
“train its attention on the particular reasons—both legal and factual—why state courts rejected a
state prisoner’s federal claims and give appropriate deference to that decision.” Wilson v. Sellers,
138 S. Ct. 1188, 1191-92 (2018). “This is a straightforward inquiry when the last state court to
decide a prisoner’s federal claim explains its decision on the merits in a reasoned opinion. In that
case, a federal habeas court simply reviews the specific reasons given by the state court and defers
to those reasons if they are reasonable.” Id. As long as fair minded jurists could disagree as to the
correctness of the state court’s decision, this highly deferential standard for evaluating state-court
rulings “demands that state-court decisions be given the benefit of the doubt.” Hooks, 689 F.3d at
1163; see Yarborough v. Alvarado, 541 U.S. 652, 664 (2004).
1. Mr. Torres’ Convictions Were Supported by Sufficient Evidence
Here, Mr. Torres contends that his convictions for first degree murder, conspiracy to
commit murder, attempted murder, and unlawful transportation of a firearm are not supported by
substantial evidence. [Doc. 1, pp. 16-17].
A litigant is entitled to federal habeas relief on a sufficiency of the evidence claim if no

15

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 16 of 35

rational trier of fact could have found him guilty beyond a reasonable doubt based on the evidence
presented at trial. 28 U.S.C. § 2254(d)(2). In reviewing a claim for sufficiency of the evidence, a
court must take both direct and circumstantial evidence, together with reasonable inferences drawn
in favor of the prosecution and determine whether a reasonable jury could find him guilty. U.S. v.
Bush, 405 F.3d 909, 919 (10th Cir. 2005).
It is within the province of the jury, as the fact-finder, to resolve conflicting testimony and
make credibility determinations. Id.; see U.S. v. Butler, 966 F.2d 559, 563 (10th Cir. 1992). As
such, the only question for a federal court on review is whether the criminal defendant’s conviction
was “so insupportable as to fall below the threshold of bare rationality.” Coleman v. Johnson, 566
U.S. 650, 655-56 (2012). The evidence must be blatantly contradicted by the record, so that no
reasonable jury could believe it. See Scott v. Harris, 550 U.S. 372, 380 (2007). The reviewing
court cannot second-guess the jury’s credibility determinations or “reassess the jury’s conclusions
about the weight of the evidence presented.” U.S. v. Johnson, 57 F.3d 968, 971 (10th Cir. 1995).
Rather, the court’s review is sharply limited, and it must accept the jury’s resolution of the evidence
as long as it is within the bounds of reason. Barger v. Oklahoma, 238 Fed. Appx. 343, 345-46
(10th Cir. 2007) (unpublished). In its review, the Federal court “must look to state law for the
substantive elements of the criminal offense.” Coleman, 566 U.S. at 655.
a. Evidence Presented at Trial Was Sufficient to Support Mr. Torres’ Convictions for
the Murder of Carlos Perez and the Attempted Murder of Ruben Perez
Under New Mexico law, a conviction for first degree murder is valid where sufficient
evidence was presented at trial from which a reasonable jury could find beyond a reasonable doubt
that the defendant killed another human being, without lawful justification or excuse, by any kind
of willful, deliberate, and premeditated killing. See § 30-2-1. In this case, the State presented a
theory that Mr. Torres was an accessory to Carlos’ murder. Under New Mexico law, a conviction
16

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 17 of 35

for aiding and abetting a murder is valid if sufficient evidence was presented at trial from which a
reasonable jury could find beyond a reasonable doubt that the defendant intended that the murder
be committed, the murder was committed, and the defendant helped, encouraged, or caused the
murder to be committed. NMSA 1978, § 30-1-13 (1963); UJI 14-2820 NMRA. A conviction for
attempted murder is valid where sufficient evidence was presented at trial from which a reasonable
jury could infer that the defendant took an overt action in furtherance of and with intent to commit
murder and tending but failing to effect its commission. See § 30-2-1; § 30-28-1.
Here, Mr. Torres alleges that there was insufficient evidence presented at trial to support a
finding that he harbored the requisite statutory intent to be found guilty of murder or attempted
murder beyond a reasonable doubt. [Doc. 1, pp. 16-17]. Understanding the contours of intent and
its application in the context of the criminal law is an arduous task. Indeed, “the meaning of the
word ‘intent’ in the criminal law has always been rather obscure.” Torres v. Mullin, 317 F.3d 1145,
1153 (10th Cir. 2003). However, a jury may reach the conclusion that a defendant harbored the
intent necessary to commit a crime even if the defendant denies having the intent. Id. Simply put,
“a jury may disbelieve the defendant.” Id. “Because an individual’s intent is seldom subject to
proof by direct evidence, intent may be proved by circumstantial evidence.” State v. Allen, 2000NMSC-002, U 65, 128 N.M. 482, 507; see Holland v. United States, 348 US. 121, 140 (1954)
(recognizing that “circumstantial evidence...is intrinsically no different from testimonial
evidence” and concluding that the jury is tasked with “weighing the probabilities” of the
defendant’s innocence, based on both circumstantial and testimonial evidence); Hooks, 780 F.2d
at 1530 (“A criminal conviction may be sustained on wholly circumstantial evidence.”); UJI 14201 NMRA (“A deliberate intention may be inferred from all of the facts and circumstances of the
killing. The word deliberate means arrived at or determined upon as a result of careful thought and

17

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 18 of 35

the weighing of the consideration for and against the proposed course of action.”).
In this case, witnesses at Mr. Torres’ trial testified to the following: Mr. Torres spent the
day preceding the murder with Edward Salas, who had a motive to kill Ruben based on the fight
between Ruben and Edward’s brother Orlando earlier that day [Doc. 8-2, pp. 2-3]; Mr. Torres
arranged a ride for himself and Edward to the apartment complex where Ruben lived [Doc. 8-2,
pp. 25, 45]; at the apartment complex, Mr. Torres and Edward shook hands with two individuals
from the Suburban group and the four disappeared from sight shortly before gunshots were heard
[Doc. 8-2, pp. 25-26, 45]; the shooter fired nine rounds into the Perez residence from a position
approximately two to three feet from Ruben’s bedroom window [Doc. 8-2, p. 46]; immediately
after shots were fired, Mr. Torres ran toward Krystal’s Camry in an excited state, smelling like
burned matches [Doc. 8-2, pp. 4, 48]; the smell of gun powder is similar to the smell of burned
matches [Doc. 832, p. 4]; once in the Camry, Edward received a phone call and said to Mr. Torres,
“We didn’t get him. We got the little boy,” to which Mr. Torres replied, “Are you sure it was the
little boy?” [Doc. 8-2, pp. 26, 46].
Addressing Mr. Torres’ challenge to the sufficiency of the evidence to support the murder
and attempted murder convictions on direct appeal, the New Mexico Supreme Court concluded
that from this evidence a jury could have reasonably inferred that Mr. Torres: had the deliberate
intent to kill Ruben; helped in the planning of the crime; and actively participated in the actual
attempt to kill Ruben. [Doc. 8-2, p. 46].
Where, as here, there is intent to kill a certain person, and a different person is killed by
mistake or accident, the crime “is the same as though the original intended victim had been killed.
In such a case, the law regards the intent as transferred from the original intended victim to the
actual victim.” UJI 14-255-NMRA. Thus, the evidence presented at Mr. Torres’ trial which is

18

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 19 of 35

sufficient to support a finding of intent to kill Ruben is also sufficient to support a finding of intent
to kill Carlos. Id.
To the extent that Mr. Torres’ challenge to the sufficiency of the evidence to support his
murder conviction relies on Mr. Torres’ own trial testimony that he was not present at the
apartment complex at the time of the shooting, such testimony does not discount the other
testimonial evidence that placed him at the scene. [Doc. 1, pp. 16-17]; Bush, 405 F.3d at 919
(recognizing that it is within the province of the jury, as the fact-finder, to resolve conflicting
testimony and make credibility determinations). Mr. Torres’ trial testimony alone, is not sufficient
to rebut the factual determinations of the New Mexico Supreme Court on the record before it.
Ryder ex rel. Ryder v. Warrior, 810 F.3d 724, 739 (10th Cir. 2016) (“The habeas petitioner bears
the burden of rebutting the state court’s factual findings by clear and convincing evidence.”
(internal quotation marks and citation omitted)).
The New Mexico Supreme Court’s determination, that sufficient evidence supports Mr.
Torres’ convictions for the attempted murder of Ruben and the murder of Carlos, is entitled to
deference, which Mr. Torres has not overcome. Wilson, 138 S. Ct. at 1191-92; Yarborough, 541
U.S. at 664; Hooks, 689 F.3d at 1163. As such, it cannot be asserted that, when viewing the
evidence “in the light most favorable to the government,” no rational jury could convict Mr. Torres
of first degree murder. See, U.S. v. Bush, 405 F.3d at 919.
b. Evidence Presented at Trial Was Sufficient to Support Mr. Torres’ Conviction for
Conspiracy to Commit First Degree Murder
Under New Mexico law, a conviction for conspiracy to murder is valid where sufficient
evidence was presented at trial from which a reasonable trier of fact could find beyond a reasonable
doubt that the defendant agreed with one or more persons and each intended to commit murder.
See § 30-2-1; § 30-28-2; UJI 14-2810 NMRA.
19

Case 2:19-CV-00209-KWR-JHR Document 13 Filed 12/04/19 Page 20 of 35

In this case, the New Mexico Supreme Court determined that, based on the evidence
presented at trial, a reasonable or reasoning jury could find that Mr. Torres was part of an
agreement to murder Ruben Perez. [Doc. 8-2, pp. 47-48]. Specifically, the New Mexico Supreme
Court pointed to the evidence that Mr. Torres was with Edward the day before the shooting, he
secured a ride for himself and Edward to the apartment complex where Ruben lived, they arrived
at the apartment complex at the same time as the Suburban group, Mr. Torres shook hands with
the persons from the Suburban group before shots were heard, he went to the shooting scene before
the shots were fired, he ran back from the scene smelling like burned matches immediately after
the shots were fired, and when Edward informed him that they shot the wrong person, Mr. Torres
asked Edward if he was sure. [Id.].
Mr. Torres does not refute this evidence. Rather, he argues that notwithstanding this
evidence, the jury would have had to speculate that he was involved in an agreement to murder
Ruben. [Doc. 1, pp. 16-17], This argument is unavailing. As the Tenth Circuit has recognized, “in
determining whether a conspiracy exists at the time of a challenged statement, the trial court may
consider the inferences reasonably drawn from the evidence submitted.” Trujillo v. Sullivan, 815
F.2d 597, 614-15 (10th Cir. 1987). “The apparently planned cooperation between the defendants,
which is sufficient circumstantial evidence to support the mutually implied understanding
necessary to establish a conspiracy, is an adequate foundation for the inference that the conspiracy
existed at least shortly before the fight, when the challenged statement was made.” Id.
Here, the jury was permitted to infer an agreement and mutual intent from the evidence
presented at Mr. Torres’ trial. And this Court must accept the jury’s resolution of the evidence as
long as it is “within the bounds of reason,” which I conclude it was. See Barger, 238 Fed. Appx.
at 345-46.

20

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 21 of 35

c. Evidence Presented at Trial Was Sufficient to Support Mr. Torres’ Conviction for
Unlawful Transportation of a Firearm
Under New Mexico law, a conviction for unlawful transportation of a firearm is valid
where sufficient evidence was presented at trial from which a reasonable trier of fact could find
beyond a reasonable doubt that the defendant was a convicted felon and knowingly transported a
firearm. See § 30-7-16.
In this case, Mr. Torres does not dispute that he was a convicted felon in September 2005
when the events underlying his criminal convictions took place. [Doc. 1, pp. 16-17]. However, Mr.
Torres contends that he was not near or in possession of a firearm around the time of the shooting.
[Id.]. However, this contention is belied by the record. As the New Mexico Supreme Court noted,
Mr. Torres’ version of the events of September 14, 2005 and September 15, 2005 varies greatly
from that of the other witnesses who testified at his trial. [Doc. 8-2, p. 49]. However, by Mr. Torres’
own admission, he was driving Edward Salas around on September 14, 2005 and was aware that
Edward had a gun in the vehicle. [Id.]. Because the relevant statute prohibits a convicted felon
from even transporting a firearm, Mr. Torres’ admission alone is sufficient to support his
conviction for being a felon in possession of a firearm. See § 30-7-16.
2. Mr. Torres’ Convictions for First Degree Murder and Attempted First Degree
Murder Did Not Violate Double Jeopardy
The Double Jeopardy Clause of the Fifth Amendment protects against: (1) a second
prosecution for the same offense after acquittal; (2) a second prosecution for the same offense after
conviction; and (3) multiple punishments for the same offense. See United States v. Dixon, 509
U.S. 688, 695-96 (1993). Here, Mr. Torres asserts double jeopardy on the basis that he received
multiple punishments for the same offense. [Doc. 1, pp. 18-19]. The determination of whether
“punishments are multiple in violation of the Double Jeopardy Clause is essentially one of

21

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 22 of 35

legislative intent.” Dennis v. Poppel, 222 F.3d 1245, 1251 (10th Cir. 2000). Federal courts must
“defer to a state court’s interpretation of state law in determining whether an incident constitutes
one or more than one offense for double jeopardy purposes.” Thomas v. Kerby, 44 F.3d 884, 887
(10th Cir. 1995) (citations omitted).
Under New Mexico law, there are two ways in which double jeopardy protections can be
violated by multiple punishments. State v. Bernal, 2006-NMSC-050, ^ 7, 140 N.M. 644, 146 P.3d
289. The first involves multiple convictions under the same statute for the same criminal conduct,
which presents a unit-of-prosecution issue. Id. The second involves multiple convictions under
different statutes for the same criminal conduct, which presents a double-description issue. Id. Iff
7, 10. On direct appeal, Mr. Torres argued that his convictions for first degree murder and
attempted murder constituted multiple punishments for the same conduct. [Doc. l,pp. 18-19]. The
New Mexico Supreme Court analyzed this issue as a unit-of-prosecution challenge. [Doc. 8-2, pp.
37-39].
In reviewing a unit-of-prosecution challenge, the only basis for relief is proof that a
defendant was charged with and convicted of “more counts of the same statutory crime than is
statutorily authorized.” Bernal, 2006-NMSC-050,13. The unit-of-prosecution analysis involves
a two-step inquiry. Id.

14. First, the court reviews the statutory language for guidance on the unit

of prosecution. Id. If the statutory language is clear regarding the unit of prosecution, the statutory
language governs and the unit-of-prosecution inquiry is complete. Id. ^ 14 (citation omitted). If
the statute is not clear, the court must determine whether the defendant’s acts “are separated by
sufficient indicia of distinctness to justify multiple punishments under the same statute.” Id.
(internal quotation marks and citation omitted).
Considering the statutory language of Section 30-2-1(A), the New Mexico Supreme Court

22

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 23 of 35

has determined that the statutory language is clear regarding the unit of prosecution. See § 30-21 (A) (“Murder in the first degree is the killing of one human being by another.” (emphasis added)).
The unit of prosecution under the statute depends on the number of victims; one murder results in
one murder charge and two murders result in two murder charges. See id. Because the unit of
prosecution set forth in Section 30-2-1(A) “is clearly dependent on the number of victims, it
follows that the Legislature intended the unit of prosecution for attempted murder to also depend
on the number of victims targeted in the attempt.” State v. Torres, 2018-NMSC-013, fflf 33-34; see
State v. Gillette, 1985-NMSC-037, ^46-47, 102 N.M. 695, 637-636 (affirming multiple
convictions for attempted murder where the intended victim and two unintended victims ingested
poison after the defendant attempted to poison the intended victim, noting that the defendant could
be found guilty for attempting to murder each individual who ingested the poison).
In this case, Mr. Torres’ convictions for murder and attempted murder correspond to crimes
committed against two victims. Under the New Mexico Supreme Court’s interpretation of Section
30-2-1 (A), these crimes committed against distinct victims do not constitute multiple punishments
for the same offense in violation of double jeopardy protections. See Torres, 2018-NMSC-013, fflf
33-34; State v. Gillette, 1985-NMSC-037, ffl[46-47.
3. Being Placed in Leg Restraints During Proceedings Did Not Deprive Mr. Torres’ of
a Fair Trial
It is not disputed that Mr. Torres was required to wear leg restraints during his trial. Mr.
Torres alleges that wearing the leg restraints undermined the presumption of his innocence and
prevented him from attending side bar conferences with his counsel in violation of his Fifth and
Fourteenth Amendment rights. [Doc. 1, pp. 23-24],

23

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 24 of 35

a. The Presumption of Mr. Torres’ Innocence Was Not Undermined Since There is no
Evidence That the Leg Restraints Were Visible to the Jury
“The Fifth and Fourteenth Amendments prohibit the use of physical restraints visible to
the jury absent a trial court determination, in the exercise of its discretion, that they are justified
by a state interest specific to a particular trial.” Deck v. Missouri, 544 U.S. 622, 629 (2005).
However, Mr. Torres does not allege and there is no indication in the record that the leg restraints
were ever visible to the jury. In fact, the record reflects that the trial court took steps to prevent the
leg restraints from being visible to the jury. [Doc. 8-2, p. 54].
Moreover, “[i]n itself, a juror’s brief view of a defendant in shackles does not qualify as a
due process violation worthy of a new trial.” United States v. Jones, 468 F.3d 704, 709 (10th Cir.
2006) (citations omitted). In order to establish a violation of due process, Mr. Torres bears the
burden to show that viewing him in shackles resulted in prejudice, which he has not done. Id.
b. The Leg Restraints Did Not Interfere with Mr. Torres’ Ability to Participate in His
Defense
A criminal defendant has a due process right to be present “whenever his presence has a
relation, reasonably substantial, to the fulness of his opportunity to defend against the charge.”
United States, v. Gagnon, 470 U.S. 522, 526 (1985) (internal quotation marks and citation
omitted). However, “the presence of a defendant is a condition of due process to the extent that a
fair and just hearing would be thwarted by his absence, and to that extent only.” Id. (internal
quotation marks and citation omitted); see also United States v. Beirle, 810 F.3d 1193, 1198. That
determination is made in light of the record as a whole. Gagnon, 470 U.S. at 526-27.
In Gagnon, the Supreme Court found that the due process rights of the defendants in that
case were not violated when they were excluded from an in camera conference between the judge,
defense counsel and a juror regarding the juror’s possible bias. The Court based its holding on the

24

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 25 of 35

fact that the defendants “could have done nothing had they been at the conference, nor would they
have gained anything by attending.” Id. at 527.
Similarly, here Mr. Torres has not demonstrated or argued that his absence from sidebar
conferences detracted from his defense or in any other way affected the fundamental fairness of
his trial. I conclude that Mr. Torres’ interests were sufficiently protected by his counsel’s presence
at the conferences and that Mr. Torres therefore had no due process right to attend.
4. Mr. Torres’ Has Not Shown That His Counsel Provided Ineffective Assistance
The Sixth Amendment to the United States Constitution guarantees Petitioner the right to
the effective assistance of counsel. Strickland v. Washington, 466 U.S. 668, 685-86 (1984). For
federal habeas petitions brought under Section 2254(d), Strickland is clearly established federal
law. See Williams, 529 U.S. at 390. To succeed under Strickland, a habeas petitioner must show
that his “counsel’s representation fell below an objective standard of reasonableness,” and that
“the deficient performance prejudiced the defense.” Strickland, 466 U.S. at 687-88. Courts “may
address the performance and prejudice components in any order, but need not address both if [the
petitioner] fails to make a sufficient showing of one.” Cooks v. Ward, 165 F.3d 1283, 1292-93
(10th Cir. 1998).
To establish Strickland’s first prong, a petitioner must overcome the presumption that
counsel “rendered adequate assistance and made all significant decisions in the exercise of
reasonable professional judgment.” Cullen v. Pinholster, 563 U.S. 170, 189 (2011) (internal
quotation marks and citation omitted). This requires the petitioner to establish that the “attorney’s
representation amounted to incompetence under prevailing professional norms, not whether it
deviated from best practices or most common custom.” Harrington, 562 U.S. at 105 (internal
quotation marks and citation omitted). To satisfy the prejudice prong, the petitioner “must show

25

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 26 of 35

that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 694. “A reasonable probability is
a probability sufficient to undermine confidence in the outcome.” Id.
For counsel’s performance to be constitutionally ineffective, it must have been completely
unreasonable, not merely wrong. Hoxsie v. Kerby, 108 F.3d 1239, 1246 (10th Cir. 1997). In
applying this test, the Court must give considerable deference to counsel’s strategic decisions,
recognizing that counsel is strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment. Strickland, 466 U.S. at
690.
a. Mr. Torres Has Not Shown That Counsel Was Ineffective in Waiving His Right to
Testify Before the Grand Jury
Mr. Torres claims that his counsel provided ineffective assistance by waiving his right to
testify before the grand jury without his consent. [Doc. 1, p. 26]. New Mexico grants a target of a
grand jury investigation the right to testify and to have exculpatory evidence presented. See NMSA
1978, § 31 -6-1 l(C)(3)-(4) (2003). However, there is no comparable federal right. See United States
v. Williams, 504 U.S. 36, 52 (1992). Errors of state law alone provide no basis for federal habeas
relief. Estelle, 502 U.S. at 67-68. As a basis for an ineffective assistance counsel claim, Mr. Torres
must show that counsel’s decision to waive his right under state law to testify before the grand jury
without his consent was objectively unreasonable, and that it prejudiced his defense. See
Strickland, 466 U.S. at 687-88.
Mr. Torres has not provided any factual or legal basis to support his claim under either of
prong of the Strickland analysis. Mr. Torres does not address the objective reasonableness of
counsel’s performance. [Doc. 1, p. 26]. Nor does he describe the testimony he could have provided
nor articulate how, but for counsel’s alleged error, the outcome of the proceeding would have been
26

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 27 of 35

different. [Id.]. Moreover, once a petit jury has returned a guilty verdict, errors potentially affecting
the grandy jury’s finding of probable cause are rendered harmless. See United States v. LopezGutierrez, 83 F.3d 1235, 1245 (10th Cir. 1996) (“A petit jury’s subsequent guilty verdict...not
only establishes there was probable cause to believe the defendant was guilty as charged, but also
that the defendant was guilty beyond a reasonable doubt. Measured by the petit jury’s verdict, then,
any error in the grand jury proceeding connected with the charging decision was harmless beyond
a reasonable doubt.” (internal quotation marks and citation omitted)).
b. Mr. Torres Has Not Shown That Counsel Was Ineffective in Not Calling Certain
Character Witnesses
Mr. Torres also claims that his counsel provided ineffective assistance because she failed
to call certain character witnesses at trial. [Doc. 1, p. 26]. Mr. Torres asserts that counsel had
limited access to him during his pretrial detention, which prevented her from calling certain
witnesses at trial that could have testified to Mr. Torres’ non-violent nature. [Id.]. However, Mr.
Torres does not identify any character witnesses that could have been introduced, describe the
testimony that could have been offered on his behalf, nor articulate how, but for counsel’s failure
to produce the character witnesses, the outcome of his trial would have been different. [Id.].
Accordingly, Mr. Torres’ ineffective assistance of counsel claim fails because he has not
demonstrated that his counsel’s performance was deficient nor that he was prejudiced by his
counsel’s alleged errors. Strickland, 466 U.S. at 687-88.
To the extent that Mr. Torres relies on his counsel’s alleged admission of her own
ineffectiveness [Doc. 1, p. 26], such an admission does not inform the Court’s analysis here. Under
Strickland, evaluating a claim of ineffective assistance of counsel “calls for an inquiry into the
objective reasonableness of counsel’s performance, not counsel’s subjective state of mind.”
Harrington, 562 U.S. at 110. For this reason, personal opinions of trial counsel and other attorneys
27

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 28 of 35

regarding what constitutes effective assistance are not dispositive and have little weight. Newland
v. Hall, 527 F.3d 1162, 1208 (11th Cir. 2008).
5. Mr. Torres’ Claim That the District Court Erred in Not Allowing Him to CrossExamine a State’s Witness About a Prior Bad Act Was Not Exhausted but Should be
Denied on the Merits
A state prisoner generally may not raise a claim for federal habeas corpus relief unless he
“has exhausted the remedies available in the courts of the State.” 28 U.S.C. § 2254(b)(1)(A). “To
exhaust a claim, a state prisoner must pursue it through one complete round of the State’s
established appellate review process, giving the state courts a full and fair opportunity to correct
alleged constitutional errors.” Selsor v. Workman, 644 F.3d 984, 1026 (10th Cir. 2011) (internal
quotation marks and citation omitted). This requires that the claim be presented in a way that alerts
the state court to the federal nature of the claim. Baldwin v. Reese, 541 U.S. 27, 29, (2004).
In addition to the exhausted claims detailed above, the Petition includes one claim which
is unexhausted. Specifically, Mr. Torres claims that the trial court erred in not allowing him to
cross-examine a state’s witness about a prior bad act. [Doc. 1, pp. 21-22]. Mr. Torres asserts that
this error denied him “his ability to fully confront the witness in violation of the sixth and
Fourteenth Amendments to the U[nited] S[tates] Constitution.” [Id.]. When Mr. Torres raised this
issue on direct appeal to the New Mexico Supreme Court, Mr. Torres argued that the trial court’s
ruling was a misapplication of New Mexico’s evidentiary rules 11-608 NMRA and 11-609 NMRA
but did not raise the constitutional issues presented here. [Doc 8-1, pp. 54-58; Doc. 8-2, pp. 1416]. Consequently, the New Mexico Supreme Court was not alerted to and did not have an
opportunity to address those issues. [Doc. 8-2, pp. 49-52].
Since Mr. Torres has presented a “mixed petition” containing both exhausted and
unexhausted claims the Court may do one of four things: (1) dismiss the mixed petition in its

28

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 29 of 35

entirety; (2) stay the petition and hold it in abeyance while the petitioner returns to state court to
raise his unexhausted claims; (3) permit the petitioner to dismiss the unexhausted claims and
proceed with the exhausted claims; or (4) ignore the exhaustion requirement altogether and deny
the petition on the merits if none of the petitioner’s claims has any merit. See Fairchild v.
Workman, 579 F.3d 1134, 1156 (10th Cir. 2009). Because I find that this claim, along with all the
other claims, is without merit, I recommend ignoring the exhaustion requirement and denying it.
The Confrontation Clause guarantees an accused the right “to be confronted with the
witnesses against him.” U.S. Const, amend. VI. “The main and essential purpose of confrontation
is to secure for the opponent the opportunity of cross-examination.” Davis v. Alaska, 415 U.S. 308,
315-16 (1974) (internal quotation marks and citation omitted). A defendant, however, does not
have an unlimited right to cross-examination, and the trial court retains “wide latitude insofar as
the Confrontation Clause is concerned to impose reasonable limits on such cross-examination
based on concerns about, among other things, harassment, prejudice, confusion of the issues, the
witness’ safety, or interrogation that is repetitive or only marginally relevant.” Delaware v. Van
Arsdall, 475 U.S. 673, 679 (1986); see also Delaware v. Fensterer, 474 U.S. 15, 20 (1985) (per
curiam) (“[T]he Confrontation Clause guarantees an opportunity for effective cross-examination,
not cross-examination that is effective in whatever way, and to whatever extent, the defense might
wish.”).
Mr. Torres complains that the trial court erred when it refused to let him cross-examine
Detective Keith Farkas about an alleged prior bad act. [Doc. 1, pp. 21-22]. Detective Farkas
worked for the Clovis Police Department in 2005 and conducted the crime scene investigation on
the Suburban and the Camry. [Doc. 8-2, p. 28]. During Mr. Torres’ trial, Detective Farkas testified
that the evidence collected from the Suburban and the Camry, consisting of fingerprints, hair, and

29

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 30 of 35

gunshot residue, produced no conclusive evidence as to the vehicles’ occupants. [Id., pp. 28-29].
After conducting his crime scene investigation and prior to Mr. Torres’ trial, Detective Farkas was
accused of and criminally charged for stealing a work computer. [Id., p. 29]. While the criminal
charges were later dropped, Detective Farkas was dismissed from the Clovis Police Department
because of the incident. [Id.].
Mr. Torres sought to cross-examine Detective Farkas regarding the alleged theft and argued
that the evidence was admissible because it went to Detective Farkas’ credibility and
trustworthiness. [Id.]. The trial court excluded the cross-examination under New Mexico’s
evidentiary Rule 11-403 NMRA, which provides that the court “may exclude relevant evidence if
its probative value is substantially outweighed by a danger of one or more of the following: unfair
prejudice, confusing the issues, misleading the jury, undue delay, wasting time, or needlessly
presenting cumulative evidence.” [Doc. 8-2, p. 28].
The United States Supreme Court has distinguished between a “general attack” on witness
credibility and a more particular attack “directed toward revealing possible biases, prejudices, or
ulterior motives as they may relate directly to issues or personalities in the case at hand.” Davis v.
Alaska, 415 U.S. 308, 316 (1974). Only the latter form of questioning is clearly protected under
the Sixth Amendment. Id. at 316, 320, 94 S.Ct. 1105. “It is within the trial court’s discretion to
limit more general attacks on the witnesses’ credibility.” Dalton v. Dinwiddie, 273 F. App’x 724,
726-27 (10th Cir. 2008); see Quinn v. Haynes, 234 F.3d 837, 845 (4th Cir.2000); Boggs, 226 F.3d
at 739; Hogan v. Hanks, 97F.3d 189,191 (7th Cir. 1996); United States v. Bartlett, 856F.2d 1071,
1088-89 (8th Cir. 1988); Hughes v. Raines, 641 F.2d 790, 793 (9th Cir. 1981); Mills v. Estelle, 552
F.2d 119, 122-23 (5th Cir.1977); see also Davis, 415 U.S. at 321 (Stewart, J., concurring) (“I
would emphasize that the Court neither holds nor suggests that the Constitution confers a right in

30

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 31 of 35

every case to impeach the general credibility of a witness through cross-examination about his past
delinquency adjudications or criminal convictions.”)- “It is therefore acceptable under Davis for
the trial court to impose reasonable restrictions on this type of cross-examination.” Dalton, 273 F.
App’x at 726-27.
Here, Mr. Torres did not intend to cross-examine Detective Farkas about the theft charge
in order to “establish bias against the defendant or for the prosecution.” Hughes, 641 F.2d at 793.
Rather, the charge merely would have been an attempt “to attack the general credibility of the
witness on the basis of an unrelated prior incident.” Id. Given the general nature of the attack
intended on Detective Farkas’ character and that the fact that the charge was not prosecuted, I
conclude that the trial court did not err in exercising its discretion to exclude cross-examination on
the theft charge.
To the extent the Mr. Torres argues that the trial court’s decision to exclusion crossexamination of Farkas on the theft charge deprived him of due process under the Fourteenth
Amendment, Mr. Torres has not articulated a distinct basis for such a claim. [Doc. 1, pp. 21-22],
The trial court’s decision and the decision of the New Mexico Supreme Court on this issue
involved interpretation of New Mexico’s evidentiary rules. [Doc. 8-2, p. 28]. Absent a specific
constitutional violation, federal habeas review of state court errors is limited to whether the error
“so infected the [proceeding] with unfairness as to make the resulting conviction a denial of due
process.” Lewis, 497 U.S. at 780.
As there was no violation of Mr. Torres’ Sixth Amendment right to confrontation, Mr.
Torres has not advanced any other argument in support of a Fourteenth Amendment claim, and the
state courts’ decisions on the cross-examination issue involved interpretation of New Mexico’s
evidentiary rules, Mr. Torres has failed to demonstrate or allege a cognizable Fourteenth

31

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 32 of 35

Amendment claim based on the trial court’s decision to exclusion cross-examination of Farkas on
the theft charge. See Lewis, 497 U.S. at 780; Langford, 110 F.3d at 1389 (acknowledging that a
petitioner may not “transform a state-law issue into a federal one merely by asserting a violation
of due process.”).
C.

Mr. Torres’ Request for Discovery and Appointment of Counsel Should be Denied
On March 15, 2019, Mr. Torres filed a Motion for Appointment of Counsel requesting the

opportunity to conduct discovery and the appointment of counsel. [Doc. 5].
1. Discovery is Not Appropriate Because Review of Mr. Torres’ § 2254 Petition is
Limited to the Record Before the State Court
Mr. Torres contends that he requires discovery to obtain new and exculpatory evidence that
will help exonerate him. [Doc. 5]. In Cullen, the Supreme Court held that “review under §
2254(d)(1) is limited to the record that was before the state court that adjudicated the claim on the
merits.” 563 U.S. at 181-85; see also Black v. Workman, 682 F.3d 880, 895 (10th Cir. 2012)
(extending Cullen to claims reviewed under § 2254(d)(2)). In this case, the merits of Mr. Torres’
claims were adjudicated on direct appeal and through his state habeas proceedings. [Doc. 8-2, pp.
22-60; Doc. 8-2, pp. 115-125; Doc. 8-3, p. 73]. Although the trial court and the New Mexico
Supreme Court dismissed Mr. Torres’ habeas petition and petition for writ of certiorari summarily,
a summary dismissal is presumptively a dismissal on the merits. Harrington, 562 U.S. at 99
(“When a federal claim has been presented to a state court and the state court has denied relief, it
may be presumed that the state court adjudicated the claim on the merits in the absence of any
indication or state-law procedural principles to the contrary.”).
The Supreme Court in Cullen addressed only evidentiary hearings and the Tenth Circuit
has not yet considered Cullen’s effect on Rule 6 discovery requests. However, the Court’s
reasoning in Cullen that § 2254 “requires an examination of the state-court decision at the time it
32

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 33 of 35

was made” extends to Rule 6 discovery motions. See 563 U.S. at 182. Further discovery under
Rule 6 would unearth evidence that was not before the state court and is therefore irrelevant to §
2254 review. See Cullen, 563 U.S. at 184; see also Tharpe v. Humphrey, 2012 WL 174844, at *4
(M.D. Ga. Jan. 20,2012) (extending Cullen to discovery requests under Rule 6); Hurst v. Branker,
2011 WL 2149470, at *7-*8 (M.D.N.C. June 1, 2011) (same); Coddington v. Cullen, 2011 WL
2118855, at *2-*3 (E.D. Cal. May 27, 2011) (same); but see Rossum v. Patrick, 659 F.3d 722, 737
(9th Cir. 2011) (Gertner, J., dissenting) (“By not purporting to change or overrule these [Rule 6
discovery] standards, the Court [in Cullen] did not intend to preclude [evidentiary] hearings in all
cases.”). Because Mr. Torres’ claims were decided on the merits and are therefore governed by §
2254(d), this Court cannot consider new evidence, rendering any additional discovery futile.
2. Even if Mr. Torres’ Request for Discovery is Not Barred by Cullen, Mr. Torres
Has Not Shown Good Cause Exists to Conduct Discovery
“A habeas petitioner, unlike the usual civil litigant in federal court, is not entitled to
discovery as a matter of ordinary course.” Bracy v. Gramley, 520 U.S. 899, 904 (1997). Rule 6(a)
of the Rules Governing § 2254 Proceedings provides that a judge “may, for good cause, authorize
a party to conduct discovery under the Federal Rules of Criminal Procedure or Civil procedure.”
In the context of a proceeding under 28 U.S.C. § 2254, the Tenth Circuit has “held that good cause
is established where specific allegations before the court show reason to believe that the petitioner
may, if the facts are fully developed, be able to demonstrate that he is entitled to relief.” United
States v. Moya-Breton, 439 F. App’x 711, 715-16 (10th Cir. 2011) (unpublished) (internal
quotation marks and citation omitted).
Mr. Torres has not put forth any specific allegations that indicate he may be entitled to
habeas relief if certain facts were fully developed. [See generally Doc. 5]. Accordingly, good cause
to authorize discovery has not been established.
33

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 34 of 35

3. Mr. Torres Has Not Demonstrated That he is Entitled to Appointment of Counsel
Under the Rules Governing § 2254 Proceedings counsel may be appointed where the Court
has granted leave to conduct discovery and if appointment of counsel is necessary for effective
discovery.7 As Mr. Torres has not met his burden to show that discovery is warranted in this case,
appointment of counsel to assist with discovery is also unwarranted.
D.

Mr. Torres’ Motion to Proceed in Forma Pauperis is Moot
Mr. Torres filed a motion to proceed in forma pauperis along with his §2254 Petition,

requesting that the filing fee for the Petition be waived. [Doc. 2]. However, Mr. Torres paid the
filing fee the next day. [Doc. 3]. Accordingly, I recommend that the motion be denied as moot.
IV.

RECOMMENDATION
For the foregoing reasons, I propose that the Court find that:
1. Mr. Torres’ claim regarding alleged IAD violations is not cognizable under §2254;
2. Mr. Torres’ claims regarding recusal of the state court judge and erroneous grand

jury testimony present matters of state law not reviewable on federal habeas;
3. Mr. Torres’ request for leave to amend his § 2254 Petition is premature;
4. Mr. Torres’ convictions for first degree murder, conspiracy to commit first degree
murder, attempted murder, and unlawful transportation of a firearm were supported by sufficient
evidence;
5. Mr. Torres’ convictions for attempted murder and first degree murder did not
violate double jeopardy protections;

7 Counsel also must be appointed if the Court determines that evidentiary hearing is necessary under Rule 8(a) of the
Rules Governing Section 2254 Proceedings for the United States District Courts. However, because the outcome of
Mr. Torres’ Petition turns on matters of law and its recommended disposition requires no further factual development,
I conclude that no evidentiary hearing is necessary and therefore appointment of counsel for that purpose is not
required.

34

Case 2:19-cv-00209-KWR-JHR Document 13 Filed 12/04/19 Page 35 of 35

6. Being placed in leg restraints during trial did not deprive Mr. Torres of a fair trial;
7. Mr. Torres’ counsel’s performance was objectively reasonable and Mr. Torres’
defense was not prejudiced by any claimed deficiency;
8. Mr. Torres has not demonstrated good cause to grant discovery under Rule 6 of the
Rules Governing Section 2254 Proceedings;
9. An evidentiary hearing is not required under Rule 8(a) of the Rules Governing
Section 2254 Proceedings; and
10. Mr. Torres is not entitled to appointment of counsel under the Rules Governing
Section 2254 Proceedings.
Therefore, I recommend to the District Judge that the Petition Under 28 U.S.C. § 2254for
Writ of Habeas Corpus by a Person in State Custody [Doc. 1], Motion to Proceed in Forma
Pauperis [Doc. 2], and Motion for Appointment of Counsel [Doc. 5] be DENIED, and that a
certificate of appealability be DENIED.

V

)

JERRY H/RITTER
UNITED STATES MAGISTRATE JUDGE

THE PARTIES ARE FURTHER NOTIFIED THAT WITHIN 14 DAYS OF SERVICE of
a copy of these Proposed Findings and Recommended Disposition, they may file written objections
with the Clerk of the District Court pursuant to 28 U.S.C. § 636(b)(1).
A party must file any objections with the Clerk of the District Court within the fourteen-day
period if that party wants to have appellate review of the proposed findings and
recommended disposition. If no objections are filed, no appellate review will be allowed.

35

